App. 1
NOT RECOMMENDED FOR PUBLICATION
File Name: 21a0171n.06
Case No. 20-5877
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JOHN J. SHUFELDT, MD,

)
)
Plaintiff-Appellant,
)
v.
)
)
BAKER, DONELSON,
)
BEARMAN, CALDWELL
)
& BERKOWITZ, PC,
)
a professional corporation,
)
Defendant-Appellee. )

ON APPEAL FROM
THE UNITED
STATES DISTRICT
COURT FOR THE
MIDDLE DISTRICT
OF TENNESSEE
OPINION
(Filed Apr. 2, 2021)

BEFORE: CLAY, READLER, and MURPHY, Circuit Judges.
CLAY, Circuit Judge. Plaintiff John J. Shufeldt,
M.D., appeals the district court’s dismissal of his complaint against Defendant Baker, Donelson, Bearman,
Caldwell & Berkowitz, P.C. (“Baker Donelson”), for legal malpractice. Because we find that the district court
erred in applying judicial estoppel to dismiss
Shufeldt’s complaint, we REVERSE the district
court’s order granting Baker Donelson’s motion to dismiss and REMAND the case for further proceedings.

App. 2
BACKGROUND
Dr. Shufeldt is the founder, former Chairman of
the Board, former Chief Executive Officer, and largest
shareholder of NextCare Holdings, Inc. (“NextCare”), a
corporation with its headquarters in Arizona that
owns and runs urgent care facilities throughout the
country. In 2010, the Department of Justice launched
an investigation into NextCare for potential violations
of the False Claims Act for conducting unnecessary
medical testing on patients.1 Shufeldt maintained that
no wrongdoing had occurred, but he eventually decided
to resign his position as CEO and Chairman after being pressured by the corporation’s Board of Directors.
Less than two months later, Enhanced Equity Fund,
L.P., the controlling stockholder, and other individuals
allegedly purchased preferred stock from NextCare at
a manipulated price, making the common stock owned
by Shufeldt appear worthless.
In February 2013, Shufeldt retained Baker Donelson to retrieve corporate documents from NextCare as
well as to investigate any claims Shufeldt may have
against NextCare for diluting and devaluing his stock.
Baker Donelson sent a written demand to NextCare
for the relevant corporate records, which NextCare refused to provide. Baker Donelson prepared a letter in
response but ultimately failed to send it—the firm informed Shufeldt of its failure to send a response in
1

In June 2012, NextCare entered into a settlement agreement
with the DOJ, in which NextCare agreed to pay $10,000,000.00
over three years and follow a corporate integrity agreement for
five years.

App. 3
October 2013. As a result, Baker Donelson neither
gained access to NextCare’s books and records, nor did
the firm file suit against NextCare under Delaware
Code § 220 to gain access to the books and records. The
firm also failed to research the applicable statute of
limitations on his claims before it expired, and only began researching the statute of limitations at Shufeldt’s
request on September 26, 2014. Shufeldt proceeded to
fire Baker Donelson and hire other counsel to file suit
against NextCare in Arizona. Before Shufeldt filed suit
against NextCare, he entered into an agreement with
Baker Donelson that tolled the applicable statute of
limitations for any legal malpractice claims Shufeldt
had against the firm as well as any time-related defenses Baker Donelson could raise.2
Shufeldt filed suit against NextCare on October 7,
2015, for claims of self-dealing and breach of fiduciary
duty in the Arizona Superior Court located in Maricopa County. In that action, NextCare filed a motion to
dismiss Shufeldt’s complaint arguing that his allegations were time-barred based on Arizona’s two-year
statute of limitations for claims regarding breach of fiduciary duty. In his opposition to the motion to dismiss,
Shufeldt argued that the statute of limitations did not
bar his claims because (1) Delaware’s three year statute of limitations applied to his claims; (2) even if
2

The parties executed the tolling agreement on August 31,
2015, but the substance of the agreement was made effective as
of April 24, 2015. The agreement was also extended multiple
times during the pendency of the litigation before the Arizona Superior Court.

App. 4
Arizona’s statute of limitations applied, the claims
were still timely because the statute of limitations did
not begin running until 2015; and (3) regardless, the
statute of limitations was tolled based on NextCare’s
fraudulent concealment of its misconduct and equitable estoppel.3 The district court denied the motion to
dismiss, finding that “[t]he statute of limitations issue
at a minimum depends on disputed questions of fact
that the Court cannot resolve at this stage of the litigation.” (R. 75-4, Exh. D at PageID # 697.) After this
ruling, Shufeldt and NextCare reached a confidential
settlement agreement, under which NextCare paid
Shufeldt $2,000,000.00 and agreed to pay Shufeldt liquidity payments based on the occurrence of conditions as set forth in the agreement.
On July 24, 2017, Shufeldt filed the instant suit in
the U.S. District Court for the Middle District of Tennessee under diversity jurisdiction. He alleged that
Baker Donelson had committed legal malpractice by
failing to tell Shufeldt about the applicable statute of
limitations on his claims against NextCare, and, as a
result of Baker Donelson’s negligence, he was unable
to file a timely complaint against NextCare. Baker Donelson proceeded to file a motion for judgment on the
pleadings, arguing that Shufeldt’s claims were barred
by judicial estoppel, as he had previously asserted
3

Shufeldt also alleged in his complaint that the action was
timely for the above reasons, noting that Shufeldt only learned
about the devaluation of his stock after he filed an action against
NextCare in Delaware state court to compel NextCare to produce
the requested documents, which was not concluded until July 8,
2015.

App. 5
before the Arizona Superior Court that his complaint
against NextCare was timely filed, and was making
the exact opposite contention in the present suit. While
this motion was pending, Shufeldt filed a motion to
amend the complaint to add allegations that clarified
Shufeldt’s claims and the issues presented in the complaint, namely providing further explanation of the
tolling agreement between Shufeldt and Baker Donelson. The magistrate judge granted Shufeldt’s motion to
amend the complaint and denied Baker Donelson’s motion for judgment on the pleadings as moot, reasoning
that the arguments made in the parties’ motions and
responses overlapped and it would be more efficient for
the district court to address them in one decision.
Baker Donelson then filed a motion to dismiss the
amended complaint on the grounds that Shufeldt was
judicially estopped from claiming that Baker Donelson
had been negligent in allowing the statute of limitations to expire. Baker Donelson argued that the relevant considerations informing whether a court should
apply the doctrine counselled in favor of applying judicial estoppel in the present case. First, the firm argued
that Shufeldt’s position in the present case—that the
statute of limitations on his claims against NextCare
had expired—was clearly inconsistent with the position he took in the previous litigation with NextCare
that his claims were timely filed. Given that this position was argued on the merits before the Arizona Superior Court and was included in his response to the
firm’s motion to dismiss, Shufeldt took this position under oath for purposes of judicial estoppel. Next, Baker

App. 6
Donelson contended that the Arizona court judicially
accepted the position by denying NextCare’s motion to
dismiss based on there being disputed facts as to the
statute of limitations. Finally, the firm argued that
Shufeldt would receive an unfair advantage if allowed
to proceed with the present litigation, having prevailed
on the motion to dismiss in the NextCare litigation and
received a sizable settlement.4
In response, Shufeldt argued that dismissal on the
grounds of judicial estoppel was not appropriate because: (1) Shufeldt did not assert his previous position—that his claims were not barred by the statute of
limitations—under oath since he did not testify, and he
was allowed to assert different positions that could be
argued in good faith; (2) the Arizona court did not judicially accept his position because the case was ultimately settled before the court could resolve the
statute of limitations issue; and (3) Baker Donelson
would not be unfairly disadvantaged if forced to proceed with the present action because it entered into a
tolling agreement with Shufeldt knowing that he could
bring suit against the firm if he did not receive a favorable result against NextCare.
The district court ultimately granted Baker Donelson’s motion to dismiss, finding that the application
4

As an additional consideration, Baker Donelson argued to
the district court that NextCare would lose the benefit of its bargain in entering into a settlement agreement with Shufeldt of
keeping the settlement agreement confidential—in the present
case NextCare would be required to produce documents pursuant
to discovery requests and the terms of settlement would be made
public.

App. 7
of judicial estoppel was appropriate in this case.5 The
district court found that Shufeldt had made the previous inconsistent statement about the statute of limitations under oath by submitting written filings and
participating in oral argument before the Arizona Superior Court, in which his attorneys certified that their
legal and factual contentions were supported by existing law and evidence respectively. The court also found
that the Arizona court adopted Shufeldt’s position by
denying NextCare’s motion to dismiss, which the court
deemed sufficient for purposes of judicial acceptance of
the position given that the issue was addressed in a
dispositive motion before the parties settled. The district court then determined that Shufeldt would receive an unfair advantage if allowed to proceed on his
claims because he would potentially be able to recover
again by switching positions; and it noted that the fact
that Baker Donelson benefitted from having its potential liability reduced based on the NextCare settlement and having entered into the tolling agreement
with Shufeldt did not factor into this analysis. And,
while the terms of the settlement agreement had already been made public during the course of this litigation, the court found that the additional consideration
of NextCare losing the benefit of its bargain in the settlement agreement with regard to related confidential

5

Before proceeding to the merits of the motion to dismiss,
the district court determined that it could consider matters outside of the pleadings—namely documents in the record of the
Arizona Superior Court litigation—that were integral to Baker
Donelson’s motion to dismiss.

App. 8
settlement correspondence weighed in favor of applying judicial estoppel. This timely appeal followed.
DISCUSSION
Standard of Review
We review “de novo a motion to dismiss under Fed.
R. Civ. P. 12(b)(6).” Eubanks v. CBSK Fin. Grp., Inc., 385
F.3d 894, 897 (6th Cir. 2004). “To survive a motion to
dismiss, a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.’ ” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 570 (2007)). Additionally, we review “a district
court’s application of judicial estoppel under a de novo
standard of review.” Lorillard Tobacco Co. v. Chester,
Willcox & Saxbe, LLP, 546 F.3d 752, 757 (6th Cir. 2008);
Audio Technica U.S., Inc. v. United States, 963 F.3d 569,
574 (6th Cir. 2020) (“[W]e have repeatedly held that judicial estoppel rulings are reviewed de novo.”).
Analysis
The only issue on appeal is whether the district
court erred when it dismissed Shufeldt’s complaint
based on judicial estoppel. As we have previously indicated, “the doctrine of judicial estoppel bars a party
from (1) asserting a position that is contrary to one
that the party has asserted under oath in a prior proceeding, where (2) the prior court adopted the contrary
position ‘either as a preliminary matter or as part of a

App. 9
final disposition.’ ”6 Browning v. Levy, 283 F.3d 761, 775
(6th Cir. 2002) (quoting Teledyne Indus., Inc. v. NLRB,
911 F.2d 1214, 1218 (6th Cir. 1990)). Judicial estoppel
is intended “to protect the integrity of the judiciary
by preventing a party from convincing two different
courts of contradictory positions, which would mean
that one of those two courts was deceived.” Audio Technica, 963 F.3d at 575. But we have warned that judicial
estoppel should be “applied with caution to avoid impinging on the truth-seeking function of the court because the doctrine precludes a contradictory position
without examining the truth of either statement.” Teledyne Indus., 911 F.2d at 1218.
Although “the circumstances under which judicial
estoppel may appropriately be invoked are probably
not reducible to any general formulation of principle,”
the Supreme Court has provided the following factors for courts to consider when applying the doctrine:
(1) whether “a party’s later position [is] clearly inconsistent with its earlier position;” (2) “whether the party
has succeeded in persuading a court to accept that
party’s earlier position, so that judicial acceptance of
an inconsistent position in a later proceeding would
6

Although this case is being heard in diversity jurisdiction,
we use principles of federal law in deciding whether to apply judicial estoppel. Edwards v. Aetna Life Ins. Co., 690 F.2d 595, 598
n.4 (6th Cir. 1982) (“Although this is a diversity case, we believe
that federal, rather than state, principles provide the rule of decision in this case. . . . The question [of judicial estoppel] primarily concerns federal interests, and, consequently, federal courts
must be free to develop principles that most adequately serve
their institutional interests.”).

App. 10
create the perception that either the first or the second
court was misled;” and (3) “whether the party seeking
to assert an inconsistent position would derive an unfair advantage or impose an unfair detriment on the
opposing party if not estopped.” New Hampshire v.
Maine, 532 U.S. 742, 750-51 (2001) (internal quotations
and citations omitted).
A. Prior Inconsistent Statement
In the present case, Shufeldt’s position that his
claims against NextCare were time-barred is clearly
inconsistent with his previous position before the Arizona Superior Court that his claims were timely filed.
In considering whether a party made an inconsistent
statement in a previous case for purposes of judicial
estoppel, we have noted that the doctrine “only applies
when the positions at issue are clearly contradictory
and the estopped party’s conduct involves more than
mistake or inadvertence” Audio Technica, 963 F.3d at
575 (internal quotations and citation omitted). In his
complaint and response in opposition to NextCare’s
motion to dismiss, Shufeldt maintained that the claims
were timely filed, arguing that the statute of limitations had not run because he did not receive the relevant documents from NextCare demonstrating the
devaluation of his stock until 2015, the same year he
filed his complaint.7 In both filings, he also maintained
7

In his complaint against NextCare, Shufeldt alleged that
“Plaintiff was not on notice that Defendants breached their fiduciary duty to him until he received the documents underlying the
Challenged Transactions and an expert analyzed them.” (R. 75-1,

App. 11
that in any event the statute of limitations was tolled
based on NextCare’s fraudulent concealment of its
misconduct. (R. 75-1, Exh. A at PageID # 634 (“[A]ny
delay in bringing this action was the result of NextCare’s false claim that it would provide Plaintiff with
the demanded documents and then failing to actually
provide the documents until Plaintiff brought a legal
action.”); R. 75-2, Exh B. at PageID # 654 (“Plaintiff ’s
action is also timely because Defendants fraudulently
concealed their wrongdoing.”).) These statements are
clearly contradictory to those in his present complaint
against Baker Donelson, in which he alleges that
“[d]uring the time that Baker Donelson represented
Shufeldt, the statutes of limitations on claims Shufeldt
had against NextCare expired.”8 (R. 72, First Am.
Compl. at PageID # 588.)

Exh. A at PageID # 634.) And “Plaintiff was forced to file an action
in Delaware state court in order to compel the production of the
requested documents,” which “was not concluded until July 8,
2015.” (Id.) Similarly, in the response in opposition to the motion
to dismiss, Shufeldt argued that “[b]ecause Plaintiff did not and
could not know about Defendants’ illegal conduct until he received the Company’s non-public internal documents, the statute
of limitations (according to Arizona or Delaware law) did not
begin to run until he finally received those documents in 2015.”
(R. 75-2, Exh. B at PageID # 651-52.)
8
Shufeldt contends in his complaint that “Baker Donelson
was negligent and breached the applicable standard of care by
failing to affirmatively and timely inform Shufeldt of the potential
time bar applicable to his claims against NextCare and the possible loss of his ability to assert such claims if suit was not timely
filed.” (R. 72, First Am. Compl. at PagelD # 590.) He further
alleges that “[b]ecause of Baker Donelson’s negligence, Shufeldt

App. 12
Shufeldt argues that these positions were not
clearly contradictory because he alternatively alleged
in the present complaint that (1) because of Baker Donelson’s negligence his claims against NextCare were
not timely filed and (2) even if the claims were timely,
the delay in filing forced Shufeldt to settle the claims
for a much smaller amount than they were worth
based on NextCare’s affirmative defense of the statute
of limitations. We discussed in Teledyne Industries the
interplay between inconsistent pleadings and judicial
estoppel, noting that “judicial estoppel does not bar a
party from contradicting itself, but from contradicting
a court’s determination that was based on that party’s
position.” 911 F.2d at 1217 n.3. For example, in City of
Kingsport v. Steel & Roof Structure, Inc., we found that
judicial estoppel did not apply where one of the defendants, SCM Corporation, who was a subcontractor on a
construction project that was the basis of the suit, asserted in its answer the affirmative defense of the statute of limitations and alleged claims for contribution
and indemnity in the event that the corporation was
liable for damages. 500 F.2d 617, 619-20 (6th Cir. 1974).
We reasoned that SCM’s attorneys could in good faith
both believe that the statute of limitations barred the
complaint and that there was a chance SCM would lose
on that argument, noting that “[t]here [was] nothing
really even contradictory or inconsistent with the
defenses pleaded” as “SCM sought indemnification
only should their defenses fail.” Id. at 619. In contrast,
failed to file a complaint against NextCare by the required date.”
(Id.)

App. 13
Shufeldt unequivocally asserted in the litigation with
NextCare that his claims were timely filed, and it is
only now in his separate legal malpractice complaint
against Baker Donelson that he puts forward these alternative theories.
Shufeldt also contends that the district court erred
by ignoring the requirement from our controlling precedent that the previous inconsistent statement be
made under oath.9 See Audio Technica, 963 F.3d at 575
(“The doctrine of judicial estoppel bars a party from [ ]
asserting a position that is contrary to one that the
party has asserted under oath in a prior proceeding. . . .” (quoting Browning, 283 F.3d at 775)); Lorillard Tobacco Co., 546 F.3d at 757 (same); Eubanks,
385 F.3d at 897 (same). While Shufeldt is correct that
we have previously required the inconsistent statement to be made under oath, his interpretation of the
“under oath” requirement as necessitating that he
have testified to the previous inconsistent statement is
too narrow. We held in Valentine-Johnson v. Roche that
the “under oath” requirement is met when a party previously asserted an inconsistent position in a written
filing and argued the motion on the merits before the
9

There is some confusion as to whether the “under oath” requirement still applies in this circuit, given that in New Hampshire the Supreme Court did not specifically mention that the
inconsistent statement needed to be made under oath, but following New Hampshire we have continued to maintain the “under
oath” requirement. See Hagan v. Baird, 288 F. Supp. 3d 803, 809
n.3 (W.D. Mich. 2018) (“In some opinions, the Sixth Circuit requires the party to take a position under oath for judicial estoppel
to apply.”).

App. 14
court. 386 F.3d 800, 812 (6th Cir. 2004). We reasoned
that the Air Force had presented the inconsistent position during the previous litigation in a motion presented to the administrative judge, in which the Air
Force certified pursuant to Federal Rule of Civil Procedure 11(b) that the contentions made in the motion
“were warranted by existing law.” Id. (cleaned up)
(quoting Fed. R. Civ. P. 11(b)(2)). Given this certification, the fact that the inconsistent position was also
argued before the administrative judge, and the equitable and flexible nature of judicial estoppel, we found
that asserting an inconsistent position in a written filing and at oral argument could “be fairly analogized to
taking a position ‘under oath’ for the purposes of judicial estoppel.” Id.; see also In re B & P Baird Holdings,
Inc., 759 F. App’x 468, 482 (6th Cir. 2019) (rejecting the
argument that judicial estoppel does not apply unless
the prior inconsistent statement was made during
sworn testimony as being “overly technical,” especially
“in the context of an equitable doctrine that is ‘not reducible to any general formulation of principle’ and
for which ‘there are no inflexible or exhaustive prerequisites for determining its applicability’ ” (quoting
Valentine-Johnson, 386 F.3d at 812)).
In the present case, Shufeldt asserted that his
claims against NextCare were timely filed both in his
complaint and his response in opposition to NextCare’s
motion to dismiss during the litigation before the Arizona court, in which he similarly certified that the
claims he made were warranted by existing law. See
Ariz. R. Civ. P. 11(b) (“By signing a pleading, motion, or

App. 15
other document, the attorney or party certifies that to
the best of the person’s knowledge, information, and
belief formed after reasonable inquiry . . . the claims,
defenses, and other legal contentions are warranted by
existing law or by a nonfrivolous argument for extending, modifying, or reversing existing law or for establishing new law.”). Additionally, his attorney asserted
that his claims against NextCare were not time-barred
in oral argument regarding the merits of NextCare’s
motion to dismiss. (R. 75-3, Exh. C at PageID # 680
(“Well, if our client’s on notice at that point, that’s
when the statute of limitations start[ed] running . . .
in April 2014. He realizes they don’t get the documents,
you know, May, June, so he’s got two years from that
point. That means he has until May 2016 to file his action, even using their argument. This case is timely.”).)
Accordingly, for purposes of judicial estoppel, Shufeldt
made the previous inconsistent statement that his
claims were timely filed under oath.
B. Judicial Acceptance of the Inconsistent
Statement
Although Shufeldt did take an inconsistent position in his suit against NextCare, the district court
erred in applying judicial estoppel because his previous position was not judicially accepted by the Arizona
court. We have stated that judicial acceptance of the
previous position “does not mean that the party
against whom the judicial estoppel doctrine is to be invoked must have prevailed on the merits.” Reynolds
v. C.I.R., 861 F.2d 469, 473 (6th Cir. 1988). Instead,

App. 16
“judicial acceptance means only that the first court has
adopted the position urged by the party, either as a preliminary matter or as part of a final disposition.” Teledyne Indus., 911 F.2d at 1218 (quoting Edwards, 690
F.2d at 599 n.5). For example, in Valentine-Johnson, we
found that an administrative judge had judicially accepted the Air Force’s previous position that the relevant agency lacked jurisdiction to hear ValentineJohnson’s termination claim after she had filed a complaint with the district court. 386 F.3d at 810, 812. We
reasoned that while “the AJ did not explicitly grant the
Air Force’s motion, [ ] as a practical matter the AJ
adopted and indeed advanced the Air Force’s position
to the detriment of Valentine—Johnson,” having indicated at a teleconference an initial inclination to dismiss her claim based on the district court complaint.
Id. at 812.
In contrast, “[s]ettlements, even in the form of an
agreed order, ordinarily do not constitute judicial acceptance of whatever terms they contain” because in a
settlement the court does not adopt one party’s position and “judicial estoppel turns on the estopped
party’s having successfully convinced the earlier court
that it was right.” Audio Technica, 963 F.3d at 576
(quoting Teledyne Indus., 911 F.2d at 1219). In Teledyne Industries, we determined that Teledyne could
not assert judicial estoppel against the NLRB in its
suit against the company alleging it committed an
unfair labor practice by wrongfully discharging two
striking workers, Stidham and Wheeler. 911 F.2d at
1215-16, 1218-19. Although the NLRB had previously
sought to enjoin these same employees for misconduct

App. 17
during the strike, we found that there had been no judicial acceptance of the NLRB’s previous position because of the NLRB’s settlement of its complaint with
those employees, which “contained no findings against
Stidham and Wheeler,” and as a result “the district
court’s entry of the agreed orders did not constitute acceptance of them.” Id. at 1219. However, we have not
applied this general rule in cases in which a bankruptcy court approves a compromise between a debtor
and creditor because “the bankruptcy court is charged
with an affirmative obligation to apprise itself of the
underlying facts and to make an independent judgment as to whether the compromise is fair and equitable” based on the parties’ representations to the court.
Reynolds, 861 F.2d at 473-74 (finding that the IRS was
judicially estopped from asserting an inconsistent position before the Tax Court because the IRS’s previous
“representation that Mrs. Reynolds had received the sale
proceeds and was taxable as an owner of the property
was essential to the bankruptcy judge’s approval of the
parties’ compromise”); see also Watkins v. Bailey, 484 F.
App’x 18, 23 (6th Cir. 2012) (finding judicial acceptance
when a state court had to approve a party’s settlement).
In the present case, there was no judicial acceptance of Shufeldt’s position that the statute of
limitations did not bar his claims against NextCare because the case ultimately settled before the Arizona
court adopted Shufeldt’s position. While the Arizona
court decided NextCare’s motion to dismiss prior to
the settlement and found in favor of Shufeldt, in its
decision the court simply concluded that “[t]he statute
of limitations issue at a minimum depends on disputed

App. 18
questions of fact that the Court cannot resolve at this
stage of the litigation.” (R. 75-4, Exh. D at PageID
# 697.) The Arizona court did not make any findings of
fact or law against NextCare—Shufeldt only convinced
the court that his allegations regarding when he
learned that the company was undervalued created a
factual dispute as to whether the statute of limitations
barred his claims, such that it was not appropriate at
that time to dismiss his complaint. See Teledyne Indus.,
911 F.2d at 1219. While ruling from the bench at oral
argument, the Arizona court also indicated:
[W]hat’s at issue is here is whether the plaintiff . . . knew that the company was undervalued. . . . [I]t appears that he did not know that
until 2015. Whether he should have known it
before then, that’s a different question. But I
can’t say on the facts in the complaint that he
should have known it before 2015.
(R. 75-3, Exh. C at PageID # 692.) The Arizona court
did at least seem inclined to think that, based on the
allegations regarding when Shufeldt learned that the
company was undervalued, the statute of limitations
had not run. But, given that the case settled after the
decision on the motion to dismiss, the court never actually had the opportunity to determine—even as a
preliminary matter—whether in fact Shufeldt’s claims
were timely filed. See Audio Technica, 963 F.3d at 576
(noting that when “the initial proceeding results in settlement, the position cannot be viewed as having been
successfully asserted” (quoting Edwards, 690 F.2d at
599)).

App. 19
Whereas in Valentine-Johnson the administrative
judge functionally adopted the Air Force’s position that
the agency lacked jurisdiction to hear the claim by telling the parties that she intended to grant the motion
to dismiss on that ground, in the present case, the Arizona court did not decide whether the statute of limitations barred Shufeldt’s claims, instead noting that
there were factual disputes regarding the statute of
limitations that could not be resolved at the motion
to dismiss stage. See 386 F.3d at 812. And unlike
Reynolds, Shufeldt’s representation that the statute of
limitations did not bar his claims was not essential to
the district court’s denial on the motion to dismiss, because the court only needed to find that the facts were
sufficiently disputed to deny the motion to dismiss. See
861 F.2d at 473-74. Ultimately, the Arizona court did
not judicially accept Shufeldt’s position that his claims
were not barred by the statute of limitations.10 As a result, the district court erred when it applied judicial
estoppel to dismiss Shufeldt’s complaint.
CONCLUSION
For these reasons, we REVERSE the district
court’s dismissal of Shufeldt’s complaint and REMAND the case for further proceedings.

10

Given that we conclude that the Arizona court did not judicially accept Shufeldt’s previous position, we need not address
whether Shufeldt received an unfair advantage by asserting inconsistent positions before the Arizona court and the district
court.

App. 20
READLER, Circuit Judge, concurring in
part and in the judgment. Whether John Shufeldt
took a position in the Arizona litigation inconsistent
with his approach here is not entirely clear, in my
mind. But I agree with the majority opinion that today’s case is a poor candidate for application of the judicial estoppel doctrine in that the Arizona court did
not “accept” any purported inconsistent statement by
Shufeldt.
Nor, for that matter, has Shufeldt achieved an unfair advantage in the present litigation against Baker
Donelson from his participation in the Arizona litigation. New Hampshire v. Maine, 532 U.S. 742, 751 (2001)
(describing the third element of judicial estoppel analysis as “whether the party seeking to assert an inconsistent position would derive an unfair advantage or
impose an unfair detriment on the opposing party if
not estopped”). Much to the contrary, in fact, when it
comes to any potential recovery against Baker Donelson. By all accounts, Shufeldt, acting pursuant to the
parties’ tolling agreement, forewent litigation against
Baker Donelson at the outset instead to attempt to recover from NextCare. Shufeldt then honored that commitment. On his claim for breach of fiduciary duty
against NextCare, Shufeldt achieved a partial recovery by way of a settlement. That is no barrier to a potential recovery against Baker Donelson. After all,
“[i]f two sets of people injure someone, what is unfair about permitting [the injured party] to recover
from both of them?” See Watkins v. Bailey, 484 F. App’x
18, 27 (6th Cir. 2012) (Sutton, J., dissenting). With

App. 21
Shufeldt having conceded at oral argument that he
would set off the amount recovered from NextCare
against any recovery from Baker Donelson, it follows
that—to the extent Baker Donelson has any liability
here to Shufeldt, a point not before us today and one
deeply contested by the parties—ultimate liability
seemingly would be reduced by amounts Shufeldt already recovered from NextCare. See id. (finding there
is no unfair advantage and no risk of double recovery
when all a party seeks is the difference in recovery
against a separate party). In other words, far from
Shufeldt obtaining an unfair advantage here as a result of the Arizona litigation, it appears that Shufeldt’s
suit against NextCare would only benefit Baker Donelson in this litigation.
Any other conclusion runs the risk of rewarding
Baker Donelson for arguably inducing Shufeldt initially to turn his litigation eye to NextCare. The parties’ tolling agreement seemingly was premised on the
notion that Shufeldt would first pursue relief against
NextCare before (if ever) taking action against Baker
Donelson. With Baker Donelson having paved the way
for Shufeldt to proceed against NextCare, it is difficult
to accept the law firm’s contention that Shufeldt’s decision to follow that path now forecloses any relief
against the firm on judicial estoppel grounds. Whether
any relief is appropriate, of course, is a question for another day.

App. 22
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
JOHN J. SHUFELDT, M.D., )
)
Plaintiff,
)
NO. 3:17-cv-01078
v.
)
) JUDGE RICHARDSON
BAKER, DONELSON,
)
BEARMAN, CALDWELL
)
and BERKOWITZ, P.C.,
)
Defendant.
)
MEMORANDUM OPINION
(Filed Jul. 23, 2020)
Pending before the Court is Defendant’s Motion to
Dismiss (Doc. No. 74) (“Motion”). Plaintiff has filed a
response in opposition (Doc. No. 83), to which Defendant has filed a reply (Doc. No. 85).
BACKGROUND1
This is a legal malpractice action brought by
Plaintiff Shufeldt, an Arizona resident, against a Tennessee law firm, pursuant to the diversity jurisdiction
of this Court. (28 U.S.C. § 1332).

1

Unless otherwise noted, these facts are taken from the
Amended Complaint (Doc. No. 72) and are accepted as true for
purposes of this Motion.

App. 23
Plaintiff is the founder of NextCare, Inc. and was
the CEO and largest shareholder of what became
NextCare Holdings, Inc. (“NextCare”). Plaintiff alleges
that in February 2013, he hired Defendant to obtain
certain corporate records of NextCare and to advise
him concerning potential claims he had against NextCare arising from the dilution, and the devaluation, of
his stock. Plaintiff contends that Defendant failed in
its undertakings for him by failing to obtain the requested records and by negligently allowing the statute of limitations to run on his claims without
notifying Plaintiff or filing suit.
Plaintiff asserts that he eventually hired new
counsel to file suit against NextCare and others
(“Nextcare defendants”) in state court in Arizona,
namely the Superior Court of Maricopa County. There,
because of Defendant’s negligence, he allegedly was
forced to settle his claims (“Nextcare claims”) for a
fraction of what they were worth. He also alleges that
prior to filing suit in Arizona, he entered into a Tolling
Agreement with Defendant to toll the limitations period for any legal malpractice claims he had against
Defendant. Plaintiff asserts that he and Defendant
understood that if he was made whole in the Arizona
lawsuit, there could be no need for him to sue Defendant, but otherwise litigation between Plaintiff and
Defendant could result.
Via the Motion, Defendant asserts additional facts
of which it claims the Court may take judicial notice.
For example, Defendant has filed documents from the
Arizona litigation (“Underlying Action”), to which

App. 24
Plaintiff has not objected and which the Court may
consider without converting the motion to one for summary judgment.2 In the Underlying Action, the NextCare defendants filed a motion to dismiss on statute
of limitations grounds. In opposing that motion to dismiss, Plaintiff argued that his claims were timely filed
because (1) the Delaware statute of limitations applied; (2) the statute of limitations did not begin to run
until Plaintiff discovered the breach of fiduciary duty
in 2015; (3) the Nextcare defendants’ fraudulent concealment tolled the statute of limitations; and (4) the
Nextcare defendants were equitably estopped from
raising a statute of limitations defense. (Doc. No. 75-2).
Plaintiff also made those arguments orally before the
Arizona court. (Doc. No. 75-3).3
The Arizona court considered these arguments
and denied the NextCare defendants’ motion to dismiss (Doc. No. 75-3 at 33 and Doc. No. 75-4), finding
that the statute of limitations issue, at a minimum, involved disputed issues of fact that the court could not
resolve on a motion to dismiss. (Id). After the Arizona
court denied the motion to dismiss, the parties to the
2

In considering a Rule 12(b)(6) motion, the court may consider the complaint and any exhibits attached thereto, public
records, items appearing in the record of the case, and exhibits
attached to a motion to dismiss provided they are referred to in
the complaint and are central to the claims. Asurion, LLC v.
SquareTrade, Inc., 407 F. Supp. 3d 744, 748 (M.D. Tenn. 2019).
3
At times herein, the Court will use the term “prior position”
to refer to Plaintiff ’s assertion in the Underlying Action that his
Nextcare claims were not barred by the applicable statute of limitations.

App. 25
Underlying Action entered into a confidential4 settlement agreement (“Settlement Agreement”) resolving
that litigation. (Doc. No. 75-5). Plaintiff now claims
that because of Defendant’s negligence, the settlement
amount was far less than the true value of his claims.
In the Motion, Defendant asserts that Plaintiff ’s
claims should be dismissed because Plaintiff is judicially estopped (due to his assertions in the Underlying
Action) from arguing that Defendant negligently allowed the statute of limitations to expire on his NextCare claims.
MOTIONS TO DISMISS
For purposes of a motion to dismiss, the Court
must take all the factual allegations in the complaint
as true, as the Court has done above. Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009). To survive a motion to dismiss, a complaint must contain sufficient factual matter, accepted as true, to state a claim to relief that is
plausible on its face. Id. A claim has facial plausibility
when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged. Id.
Threadbare recitals of the elements of a cause of action, supported by mere conclusory statements, do not
4

The Settlement Agreement contains a confidentiality provision that precludes the parties from disclosing any information
concerning the settlement to any third party. Nevertheless, as
acknowledged by Defendant (Doc. No. 75 at 8), the Settlement
Agreement obviously was disclosed to Defendant, which has filed
a copy in the public record here. (Doc. No. 75-5).

App. 26
suffice. Id. When there are well-pleaded factual allegations, a court should assume their veracity and then
determine whether they plausibly give rise to an entitlement to relief. Id. at 1950. A legal conclusion, including one couched as a factual allegation, need not be
accepted as true on a motion to dismiss, nor are mere
recitations of the elements of a cause of action sufficient. Id.; Fritz v. Charter Township of Comstock, 592
F.3d 718, 722 (6th Cir. 2010), cited in Abriq v. Hall, 295
F. Supp. 3d 874, 877 (M.D. Tenn. 2018). Moreover, factual allegations that are merely consistent with the defendant’s liability do not satisfy the claimant’s burden,
as mere consistency does not establish plausibility of
entitlement to relief even if it supports the possibility
of relief. Iqbal, 556 U.S. at 678.
In determining whether a complaint is sufficient
under the standards of Iqbal and its predecessor and
complementary case, Bell Atlantic Corp. v. Twombly,
550 U.S. 544 (2007), it may be appropriate to “begin
[the] analysis by identifying the allegations in the complaint that are not entitled to the assumption of truth.”
Iqbal, 556 U.S. at 680. This can be crucial, as no such
allegations count toward the plaintiff ’s goal of reaching plausibility of relief. To reiterate, such allegations
include “bare assertions,” formulaic recitation of the
elements, and “conclusory” or “bald” allegations. Id. at
681. The question is whether the remaining allegations – factual allegations, i.e., allegations of factual
matter – plausibly suggest an entitlement to relief. Id.
If not, the pleading fails to meet the standard of Fed.

App. 27
R. Civ. P. 8 and thus must be dismissed pursuant to
Rule 12(b)(6). Id. at 683.
As a general rule, matters outside the pleadings
may not be considered in ruling on a motion to dismiss
under Fed. R. Civ. P. 12(b)(6) unless the motion is converted to one for summary judgment under Rule 56.
Fed. R. Civ. P. 12(d). When a document is referred to in
the pleadings and is integral to the claims, it may be
considered without converting a motion to dismiss into
one for summary judgment. Doe v. Ohio State Univ.,
219 F.Supp.3d 645, 652-53 (S.D. Ohio 2016); Blanch v.
Trans Union, LLC, 333 F. Supp. 3d 789, 791-92 (M.D.
Tenn. 2018).
As suggested above, in a typical motion under
Rule 12(b)(6), the question is whether the plaintiff has
alleged enough factual matter to state a viable claim
for relief. Here, however, that is not the issue; instead,
the issue is whether Defendant’s defense of judicial
estoppel should be applied to bar Plaintiff ’s claims at
this stage. That is, given the basis of Defendant’s atypical motion to dismiss, the question here is whether
plaintiff ’s alleged facts render his claim not viable—
i.e., subject to judicial estoppel as a matter of law based
on (a) the factual matter set forth in the complaint and
(b) matters outside the complaint that are properly
considered on this Motion based on their being referred to in the complaint.

App. 28
JUDICIAL ESTOPPEL
Federal standards govern the application of judicial estoppel in federal court, even in diversity cases.
Watkins v. Bailey, 484 F. App’x 18, 20 n.1; (6th Cir.
2012); Terry v. Ethicon, Inc., No. 1:19-CV-00175-GNS,
2020 WL 3003051, at *2 (W.D. Ky. June 4, 2020); Taylor
Excavating, Inc. v. Abele Tractor & Equip. Co., No.
3:09CV268, 2012 WL 12894224, at *4 (N.D. Ohio Feb.
10, 2012).
The doctrine of judicial estoppel bars a party from
asserting a position that is contrary to one that the
party has asserted under oath in a prior proceeding,
where the prior court adopted the contrary position
either as a preliminary matter or as part of a final
disposition. Audio Technica U.S., Inc. v. United States,
No. 19-3469, 2020 WL 3481702, at *4 (6th Cir. June 26,
2020). The object of the doctrine is to protect the integrity of the judicial process. Watkins, 484 F. App’x at 20;
Edwards v. Aetna Life Ins. Co., 690 F.2d 595, 599 (6th
Cir. 1982) (explaining that the essential function of judicial estoppel is to prevent intentional inconsistency
and that the object of the doctrine is to protect the judiciary, as an institution, from the perversion of judicial machinery).
“The purpose of the doctrine is to protect the integrity of the judiciary by preventing a party from convincing two different courts of contradictory positions,
which would mean that one of those two courts was
deceived.” Audio Technica, 2020 WL 3481702, at *4. It
is an equitable doctrine that preserves the integrity of

App. 29
the courts by preventing a party from abusing the judicial process through cynical gamesmanship, achieving success on one position, then arguing the opposite
to suit an exigency of the moment. In re B&P Baird
Holdings, Inc., 759 F. App’x 468, 478 (6th Cir. 2019). Judicial estoppel, however, should be applied with caution to avoid impinging on the truth-seeking function
of the court, because the doctrine precludes a contradictory position without examining the truth of either
statement. Id. Judicial estoppel “is an equitable doctrine employed at the district court’s discretion.”5 Grise
v. Allen, 714 F. Appx. 489, 494 (6th Cir. 2017).
“[T]he doctrine of judicial estoppel . . . preserve[s]
judicial integrity by preventing parties from intentionally ‘changing positions according to the exigencies of
the moment.’ ” Am. Guarantee & Liab. Ins. Co. v. Norfolk S. Ry. Co., 278 F. Supp. 3d 1025, 1048 (E.D. Tenn.
2017) (quoting New Hampshire, 532 U.S. at 750). The
doctrine of judicial estoppel prevents a party from
maintaining one position, prevailing on that issue, and
then changing positions later to his benefit. Clark v.
5

This is true despite the fact that under current Sixth Circuit law, the district court’s discretionary determination as to judicial estoppel is review not for abuse of discretion, but rather
de novo. See Audio Technica U.S., Inc. v. United States, 963 F.3d
569 (6th Cir. 2020); Davis v. Fiat Chrysler Automobiles U.S., LLC,
747 F. App’x 309, 312 & n.2 (6th Cir. 2018). Sixth Circuit panels
have been quite aware of “the seeming incongruity of applying de
novo review to the inherently discretionary decision of a court to
apply judicial estoppel” but have felt compelled to perpetuate that
incongruity for now in light of still-binding Sixth Circuit precedent. Id. at 312 n.2; see also Grise, 714 F. App’x 494 n.2; Lewis v.
Weyerhaeuser Co., 141 F. App’x 420, 423–24 (6th Cir. 2005).

App. 30
Shop24 Glob., LLC, No. 2:12-cv-802, 2016 WL 5533585,
at *7 (S.D. Ohio Sept. 30, 2016). When a party convinces a court to take a certain position, and later advocates an inconsistent position, the court can apply
the doctrine of judicial estoppel to prevent that party
from playing “fast and loose” with the courts. Han v.
Hankook Tire Co., 799 F. App’x 347, 349 (6th Cir. 2020)
(citing Edwards, 690 F.2d at 598-99.
There is no set formula for assessing when judicial
estoppel should apply. Han, 799 F. App’x at 349 (citing
New Hampshire, 532 U.S. at 750). However, courts usually focus on three factors. First, for judicial estoppel
to apply, a party’s later position must be clearly inconsistent with its earlier position. Id. Second, a court
should review whether the party has succeeded in persuading a court to accept that party’s earlier position,
so that judicial acceptance of an inconsistent position
in a later proceeding would create the perception that
either the first or the second court was misled. Id. Finally, the court should evaluate whether the party advancing an inconsistent position would gain an unfair
advantage if allowed to proceed with that argument.
Id.
A. Clearly Inconsistent and Under Oath
First, if judicial estoppel is potentially to apply,
a party’s later position must be clearly inconsistent
with its earlier position. Bakery, Confectionery, Tobacco Workers & Grain Millers, Int’l Union AFL-CIO
v. Kellogg Co., 904 F.3d 435, 441–42 (6th Cir. 2018).

App. 31
Defendant argues that Plaintiff ’s position in this
case—that the statute of limitations had expired on his
Nextcare claims—is clearly inconsistent with the position he took in the Underlying Action. As noted above,
Plaintiff argued in the Underlying Action that his
claims were timely filed because, among other things,
the statute of limitations did not begin to run until
Plaintiff discovered the alleged breach of fiduciary
duty in 2015 and the Nextcare defendants’ fraudulent
concealment tolled the statute of limitations.6 Defendant cites to numerous places in the record of the Underlying Action where Plaintiff made these arguments
and contends that in the Underlying Action, Plaintiff
“championed” the timeliness of his claims to defeat
the NextCare defendants’ motion to dismiss and to

6

As the undersigned noted some time ago:
The term “tolling” is used two different ways. First,
“tolling” often refers to a postponement of the date the
statute begins to run, usually the accrual date. By contrast, some courts use the term “tolling” to refer to suspending the running of the limitations period after it
already has begun to run. Some tolling provisions cannot be placed comfortably in either tolling category,
and some tolling provisions can either postpone the
starting of the clock or stop it after it begins running,
depending upon the timing of the event that triggers
the tolling. Nevertheless, the distinction exists and is
analytically important.
Eli J. Richardson, Eliminating the Limitations of Limitations
Law, 29 Ariz. St. L.J. 1015, 1039–40 (1997). In the Underlying
Action, Plaintiff appeared to use “tolled” in the former sense; i.e.,
to refer to a postponement of the accrual date. (Doc. No. 75-2 at
13-19)

App. 32
leverage a $2 million plus settlement. (Doc. No. 75 at
3-7 and 13).7
Plaintiff does not dispute that his position in the
Arizona court was inconsistent with his position
herein. Instead, he responds by contending that he did
not testify in the Underlying Action, and that therefore
his alleged contrary position was not “under oath.”
Plaintiff cites cases from 1974 and 19908 to argue that
taking inconsistent positions does not give rise to judicial estoppel when those positions were not taken under oath. At least one court in this Circuit has stated
that the law is not clear as to whether such an oath is
required. Hagan v. Baird, 288 F. Supp. 3d 803, 809, n.3
(W.D. Mich. 2018).
Even if such an oath is still required, however, the
Sixth Circuit has indicated that a party’s written court
filings, along with arguing the merits of their assertions, may be fairly analogized to taking a position “under oath” for the purposes of judicial estoppel. See, e.g.,
Valentine-Johnson v. Roche, 386 F.3d 800, 812 (6th Cir.
7

Significantly, Plaintiff had not argued merely that the motion to dismiss must be denied because there were disputed issues
about whether his claim were time-barred. Instead, he argued unqualifiedly that his claims were not time-barred. (Doc. No. 75-2 at
13-19). Thus, even assuming that the former argument (the one
he did not make) is sufficiently qualified that it is not inconsistent
with his current unqualified position that his claims were timebarred, the latter argument (the one he did make) is inconsistent
with his current position.
8
City of Kingsport v. Steel & Roof Structures, Inc., 500 F.2d
617, 619-20 (6th Cir. 1974) and Teledyne Indus., Inc. v. NLRB,
911 F.2d 1214, 1218 (6th Cir. 1990).

App. 33
2004) (citing Alternative Sys. Concepts, Inc. v. Synopsys,
Inc., 374 F.3d 23, 30-31 (1st Cir. 2004)); B&P Baird
Holdings, 759 F.App’x at 482 (“This overly technical argument [that the assertions were not under oath] fails
here, in the context of an equitable doctrine that is ‘not
reducible to any general formulation of principle’ and
for which ‘there are no inflexible or exhaustive prerequisites for determining [its] applicability.’ ”). In other
words, “under oath” does not necessarily mean “literally under oath.”
The Court finds that Plaintiff ’s written court filings and oral arguments before the Arizona court meet
the “under oath” requirement, particularly in light of
the rules holding that attorneys who sign, file, submit,
or later advocate matters to the court are certifying
that the claims, defenses and other legal contentions
therein are warranted by existing law and the factual
contentions have evidentiary support. B&P Baird
Holdings, 759 F. App’x at 482-83; see also Fed. R. Civ. P.
11(b).9 These rules requiring such (implied) certifications appear to serve a purpose similar to a purpose
underlying the requirement of an oath: to impart upon
the speaker (or writer) the importance of what is being
communicated and the corresponding need to make
the spoken (or written) communications in good faith.
The attorneys for Plaintiff in the Underlying Action
made just such implied certifications in connection
9

Notably, such rules are applicable not only in federal court
pursuant to Rule 11 of the Federal Rules of Civil Procedure, but
also in Arizona Superior Court pursuant to Rule 11 of the Rules
of Civil Procedure for the Superior Courts of Arizona.

App. 34
with filings in the Arizona Superior Court made on behalf of Plaintiff. These include, for example, not only
the complaint (Doc. No. 75-1), but also Plaintiff ’s brief
opposing Nextcare’s motion to dismiss, which specifically refutes that Plaintiff ’s claims were barred by the
statute of limitations.10 (Doc. No. 75-2 at 13-19).
For these reasons, the Court finds that Defendant
has shown that Plaintiff ’s prior position satisfies the
“under oath” requirement and was clearly inconsistent
with Plaintiff ’s current position.
B. Acceptance of the Prior Position
Second, courts assess whether the party has succeeded in persuading a court to accept that party’s earlier position. Absent success in a prior proceeding, a
party’s later inconsistent position introduces no risk of
inconsistent court determinations and thus poses little
threat to judicial integrity. Kellogg, 904 F.3d at 441–42.
The party’s prior position must have been actually successful in persuading the prior court “so that judicial
acceptance of an inconsistent position in a later proceeding would create the perception that either the
first or the second court was misled.” Am. Guarantee,
278 F. Supp. 3d at 1048 (quoting Edwards, 690 F.2d at
598); Edwards, 690 F.2d at 599, n. 5 (explaining that
for this factor to cut in favor of judicial estoppel, the
party to be estopped need not have finally prevailed on
the merits in the first proceeding, so long as that the
10

Below, the Court will used the term “time-barred” as shorthand for “barred by the statute of limitations.”

App. 35
first court adopted the position urged by the party,
either as a preliminary matter or as part of a final disposition); see also Thompson v. Davidson Transit Org.,
563 F. Supp. 2d 820, 830 (M.D Tenn. 2008) (citing
Reynolds v. C.I.R., 861 F.2d 469, 473 (6th Cir. 1988)
(prior success requirement does not mean the party
against whom the judicial estoppel doctrine is invoked
must prevail on the merits)) The Sixth Circuit requires
that the first court has adopted the position urged by
the party, either as a preliminary matter or as a part
of the final disposition, in order for the “success” requirement to have been met. Thompson, 563 F. Supp.
2d at 830.
Defendant argues that the Arizona court, in denying the NextCare defendants’ motion to dismiss, accepted Plaintiff ’s statute of limitations arguments.
Plaintiff contends that the Arizona case was settled
without the statute of limitations issues being resolved
and that the Arizona court merely found that it could
not resolve the statute of limitations issues on a motion to dismiss.
In denying the motion to dismiss Plaintiff ’s complaint in the Underlying Action, the Arizona court
“adopted” the statute-of-limitations argument of Plaintiff to the extent necessary to defeat that motion,
thereby “advanc[ing] [Plaintiff ’s] position to the detriment of ” the NextCare defendants. See Valentine, 386
F.3d at 812. The judge in the Underlying Action stated
that what was at issue was whether Plaintiff knew
that the company was undervalued, and it appeared
that he did not know that until 2015. (Doc. No. 75-3 at

App. 36
33). He denied the motion to dismiss, stating that the
statute of limitations issue at a minimum depended on
disputed questions of fact that the Court could not resolve at this stage of the litigation. (Doc. No. 75-4 at 1).
True, the judge ruled ultimately only that he could not
yet reject Plaintiff ’s argument that his claims were not
time-barred; he did not unqualifiedly accept Plaintiff ’s
argument that his claims were not time-barred. But as
discussed above, for this factor to cut in Plaintiff ’s favor, there not have to be a final resolution of the statute
of limitations issue in favor of Plaintiff; the Arizona
court adopted Plaintiff ’s position to a sufficient extent,
as a preliminary matter, to prevent dismissal of the
Underlying Action, and this suffices to place this factor
in Defendant’s column.
Plaintiff cites several cases in which judicial estoppel was held inapplicable because the case settled
without the court accepting the inconsistent position
for any purpose, preliminary of otherwise. For example, in American Guarantee, the court held that the
prior position was not successfully asserted in the underlying action because the case settled. Am. Guarantee, 278 F. Supp. 3d at 1048. There is no indication in
that case, however, that the inconsistent position was
taken through a motion or response thereto or that the
court previously considered the inconsistent position
in making any ruling. Similarly, in City of Kingport v.
Steel and Roof Structures, Inc., 500 F.2d 617 (6th Cir.
1974), the party raised a statute of limitations defense
in its answer, but the parties settled before the jury
made a decision on that defense. Id. at 619. Thus, the

App. 37
issue was never determined because the parties settled. The court stated, “because of the settlement of
plaintiffs’ case, the defense of the bar of the statute of
limitations was never decided, and therefore no estoppel can possibly exist.” Id. at 620.
Noting that settlements, even in the form of an
agreed order, ordinarily do not constitute judicial acceptance of whatever terms they contain, the Sixth
Circuit recently reiterated that this factor turns on the
party to be estopped having successfully convinced
the earlier court that it was right. Audio Technica,
2020 WL 3481702, at *5.11 In Taylor, the defendant had
sworn in an affidavit in a prior proceeding that the
transaction at issue in the case was a “purchase.” Taylor, 2012 WL 12894334, at *4. The first court, relying
upon that affidavit, ordered discovery and compelled
appearances of certain witnesses for examination
premised on the contention that the transaction was a
purchase. The second court in Taylor held that the first
court did not have to make a final determination on the
status of the transaction in order for judicial estoppel
to later apply; it simply had to adopt the position as a
preliminary matter in issuing its order. Id. Judicial estoppel applies if the initial court “adopted the position

11

In Valentine-Johnson, the court held that the prior tribunal (in that case, an administrative judge), even though not explicitly granting the defendant’s motion, did adopt and advance
the defendant’s position to the detriment of Valentine-Johnson,
so this factor of judicial estoppel cut in the defendant’s favor.
Valentine-Johnson, 386 F.3d at 812.

App. 38
urged by the party, either as a preliminary matter or
as part of a final disposition.” Id.
Here, the statute of limitations defense was litigated on a dispositive motion. The NextCare defendants
asked the Arizona court to dismiss the case against
them on statute of limitations grounds and the court
denied that request. After reading and hearing Plaintiff ’s arguments as to the timeliness of his claims, the
Arizona court denied the motion to dismiss. Settlement
came after the court’s ruling. Granted, that ruling did
not end the case, but the court accepted Plaintiff ’s arguments on a preliminary matter, and that decision
was to the detriment of the Nextcare defendants. In
short, the Arizona court accepted Plaintiff ’s prior position regarding the statute of limitations to the full
extent necessary to deny the motion to dismiss the
Underlying Action—the very result Plaintiff sought
when asserting his prior position. The Court finds that
the Arizona court accepted Plaintiff ’s prior inconsistent
position for purposes of this factor in the judicialestoppel analysis.
C. Unfair Advantage
A third consideration is whether the party seeking
to assert an inconsistent position would derive an unfair advantage or impose an unfair detriment on the
opposing party if not estopped. Kellogg, 904 F.3d at
441. Defendant argues it is “patently unfair to permit
a litigant to obtain separate recoveries against different parties arising out of the same transaction by

App. 39
flip-flopping positions as the exigencies of the moment
require.” (Doc. No. 85 at 5). Plaintiff, on the other
hand, asserts that Defendant benefitted from Plaintiff ’s claims against and settlement with the NextCare
defendants in the Underlying Action.
In Watkins,12 the plaintiff agreed to (and did) settle
a medical malpractice action she brought on behalf of
her child, after a mistrial was declared based upon
her counsel’s misbehavior during the trial. Watkins,
484 F. App’x at 19. She then brought a legal malpractice action against her counsel based upon the settlement amount allegedly being smaller than it would
have been absent her counsel’s misbehavior and secret
desire to settle to avoid criminal contempt charges. Id.
In the underlying medical malpractice action, however,
approval of the settlement by the court was required.
The plaintiff had testified that the settlement was in
the best interests of her and her child. Id. at 22. The
Sixth Circuit held plaintiff to that statement and
found that she was judicially estopped to argue, in her
legal malpractice action, that the settlement was not
in her best interests. The court stated that to allow the
plaintiff to proceed with her legal malpractice claim
would give her an unfair advantage by allowing her
potentially to obtain another recovery, against another
party, arising out of the same transaction. Id. at 23-24
(citing See McKay v. Owens, 130 Idaho 148, 937 P.2d
1222, 1229 (1997), 937 P.2d at 1228 (holding that the
12

The Court recognizes that Watkins is an unpublished case
and thus not precedential. However, in the Court’s view it is very
much on point and persuasive.

App. 40
plaintiff could not take advantage of settlement from
one party—the medical malpractice defendant—and
later repudiate the statement made in open court to
obtain recovery from her attorneys who were intimately intertwined with the prior proceeding)).
Plaintiff also contends that it would not gain an
unfair advantage by asserting a changed position in
this case, because Defendant benefitted from the settlement by having its liability to Plaintiff reduced.
That may be so, but the defendant in Watkins benefited
in the same way, and yet the Sixth Circuit did not even
consider such benefit in assessing unfair advantage.
And the Court can see why. This supposed benefit to
Defendant (a reduction of its potential liability to
Plaintiff ) would be illusory if Defendant had no liability to Plaintiff. Because Watkins teaches that Plaintiff
would gain an unfair advantage by pursuing liability
against Defendant as a direct result of Plaintiff ’s
change of position, Plaintiff ’s contention here amounts
to this: he does not gain an unfair advantage from his
change of position, because the unfairness of his
change in position is mitigated by the effects of his
original position (a substantial settlement). At best,
Plaintiff ’s contention logically suggests only a reduction in, not an elimination of, the unfairness of the potential advantage he gained by switching positions.
Thus, Plaintiff ’s contention cannot and does not
change the reality that this factor weighs in Defendant’s favor.
Plaintiff also argues that the present action brings
him no unfair advantage, because of the Tolling

App. 41
Agreement. This argument is misplaced. The Tolling
Agreement provided merely that Defendant would
not raise a statute of limitations defense to any legal
malpractice action brought by Plaintiff against it. The
Tolling Agreement said nothing about prohibiting a judicial estoppel defense based on Plaintiff previously
having refuted a statute of limitations defense raised
by other parties on a different kind of action; indeed,
the Tolling Agreement said nothing about prohibiting
a judicial estoppel defense at all. Plaintiff ’s citations
to Tennessee state cases, such as Parnell v. Ivy, 158
S.W.3d 924 (Tenn. Ct. App. 2004), on this issue are also
misplaced, since federal standards govern the application of judicial estoppel in federal courts.
Plaintiff alleges in his Amended Complaint that
Defendant “understood” that if Plaintiff was not made
whole in the Underlying Action, then subsequent litigation with Defendant could be anticipated. In support
of this allegation, Plaintiff merely cites the Tolling
Agreement’s statement that it “serves the mutual interest of the parties and hopefully will serve to avoid
litigation between them.” (Doc. No. 75-6 at 1). But it is
one thing for parties to have a mutual desire to avoid
litigation, and it is quite another for them to have a
mutual understanding that, despite that mutual desire: (a) litigation nevertheless may occur under certain circumstances, and (b) if it does, the defendant
acquiesces in the litigation because those circumstances are present. Thus, the Tolling Agreement does
not refer to or even suggest the alleged “understanding.”

App. 42
D. Additional Consideration
Citing Watkins, Defendant asserts that one additional consideration favors the application of judicial
estoppel: if Plaintiff is not estopped from proceeding
with this action, the NextCare defendants in the Underlying Action will be deprived of the benefit of their
bargain in the confidential Settlement Agreement by
“being subjected to extensive discovery obligations in
this case and having the terms of the settlement made
public.” (Doc. No. 75 at 23). Watkins indeed counsels
the Court to consider this:
There is the hospital [the defendant in the underlying action] to think about: it entered into
a confidential settlement agreement. If the
current lawsuit proceeds to trial, the hospital
essentially loses the benefit of that bargain,
namely to avoid litigation. The hospital would
also lose the bargained-for benefit of confidentiality. To prove the legal malpractice claim,
the fact finder would have to be made aware
of the facts of the underlying medical malpractice claim in order to assess liability and
damages.
Watkins, 484 F. App’x at 24.
As noted above, the terms of the Settlement Agreement between Plaintiff and the NextCare defendants
have already been made public by Defendant’s filing of
the Settlement Agreement in this case. No one has
objected to that public filing; for all the Court knows,
all Nextcare defendants consented to this filing.

App. 43
But even assuming that the Nextcare defendants
effectively waived (or forfeited) the confidentiality of
the Settlement Agreement for which they bargained,
there is no indication that they have also waived the
confidentiality of “written or electronic correspondence, work papers or similar documents in any way related to the disputes settled or the claims released
hereby,” for which they also bargained.13 In addition,
there is there is no indication that the Nextcare defendants have waived or forfeited any interest in the
avoidance of litigation for which they unquestionably
bargained.14 If the instant action is allowed to proceed,
the Nextcare defendants almost surely will be drawn
into this litigation (and conceivably could have to do
some litigating of their own to oppose particular subpoenas or discovery requests). Thus, by allowing Plaintiff to change his position from the position he asserted
in the Underlying Action on the road to obtaining a
substantial (at least in absolute terms) settlement,
the Court would jeopardize the benefits of the bargain
Defendants obtained in return for agreeing to that
settlement in the first place. Plaintiff does not suggest otherwise, and indeed has not even responded to
this argument. This consideration clearly cuts in Defendant’s favor.

13

Page 11 of the Settlement Agreement makes quite clear
that the Nextcare defendants bargained for confidentiality as to
such information.
14
Page 2 of the Settlement Agreement makes quite clear
that the Nextcare defendants bargained for that.

App. 44
Watkins suggests another additional consideration: whether allowing Plaintiff to proceed in this
case—by asserting that his Nextcare claims were
time-barred—would “undermine” the Arizona court’s
decision in the Underlying Action. Id. That question
must be answered in the negative. The Arizona court
did not say that Plaintiff was correct in asserting that
the Nextcare claims were not time-barred; it said essentially only that it could not yet determine whether
they were time-barred (and thus could not dismiss
them). Plaintiff ’s current position cannot be said to
undermine the Arizona court’s decision.15 So this consideration weighs in Plaintiff ’s favor, essentially counterbalancing, in the Court’s view, the consideration in
Defendant’s favor discussed immediately above.
Finally, Plaintiff relies generally on his contention
that Defendant’s alleged negligence, the crux of the instant action, caused him to settle his claims in the Underlying Action for a fraction of what they were worth.
(Doc. No. 83 at 6, 9). But this contention does not ultimately affect the judicial estoppel analysis. The same
contention was made in Watkins—in which the plaintiff claimed in her legal malpractice suit that she settled her underlying case for less than she would have
absent the legal malpractice—but the Sixth Circuit
simply did not count this in her favor. One suspects
15

But this consideration is separate from the primary consideration noted above, i.e., whether Plaintiff ’s current position
is inconsistent with Plaintiff ’s prior position. As discussed above,
it is—even though it is not inconsistent with the decision of the
Arizona court.

App. 45
that is because the contention puts the cart before
the horse; the doctrine of judicial estoppel addresses
whether the plaintiff can even pursue the legal malpractice claim in the first place, and thus the court
should not accept the mere existence of the claim of
legal malpractice as grounds not to apply judicial estoppel and instead allow pursuit of the legal malpractice claim.
E. Summary
The application of judicial estoppel turns on the
application of a multi-factor test. As the undersigned
noted some time ago, the “appl[ication of ] a multi-factor
test [is] always an unpredictable endeavor.” Eli J. Richardson, Eliminating the Limitations of Limitations
Law, 29 Ariz. St. L.J. 1015, 1050 (1997). Eli J. Richardson, Taking Issue with Issue Preclusion: Reinventing Collateral Estoppel, 65 Miss. L.J. 41, 73 (1995)
(describing particular multi-factor tests as “inherently
insusceptible to predictable results”). As noted above,
whether to apply judicial estoppel is a question committed to the discretion of the district court.
Given the discretionary and unpredictable nature
of the decision, the Court cannot purport to be able to
pronounce a single “right” decision. But what it can do
is pronounce the decision it believes is more persuasive
under the facts and the law. Here, although Plaintiff
has a point or two in his favor, the Court is convinced
that the substantially more persuasive decision is to
apply judicial estoppel to Plaintiff ’s claims. In the

App. 46
Court’s view, the facts (as alleged in the complaint and
as otherwise properly before the Court on this motion
under Rule 12(b)(6)) material to the decision are clear.
And when they are subjected to relevant case law, it is
clear to the undersigned that on balance the applicable
factors weigh in favor of the application of judicial estoppel. It is also clear that the purposes of judicial estoppel would be promoted by its application in this
case.
CONCLUSION
Due to the doctrine of judicial estoppel, “[o]ne may
not assert a particular position in order to serve one
purpose, then assert a wholly contrary position to
serve another.” Watkins, 484 F. App’x at 24 (quoting
McKay, 937 P.2d at 1227)). The doctrine “preserves the
integrity of the courts by preventing a party from . . .
achieving success on one position, then arguing the opposite to suit an exigency of the moment.” B & P Baird
Holdings, Inc., 759 F. App’x at 478 (quoting Teledyne
Indus., Inc. v. NLRB, 911 F.2d 1214, 1218 (6th Cir.
1990)). That is precisely what Plaintiff has done here.
He asserted in the Underlying Action that his Nextcare claims were not time-barred, and, by convincing
the Arizona court that his assertion ultimately could
prove right, thereby served his purpose of avoiding dismissal (which doubtless contributed to his success in
achieving a substantial settlement). Now, believing
that he was not successful enough in terms of the settlement amount, he asserts that those claims were
time-barred.

App. 47
This is the kind of situation to which, according to
applicable case law, judicial estoppel is meant to apply.
To be sure, the Court has the discretion not to apply
the doctrine. But it is convinced here, based on all of
the circumstances, that it should apply it.
For these reasons, Defendant’s Motion to Dismiss
(Doc. No. 74) will be GRANTED, and this action will
be dismissed.
An appropriate Order will be entered.
/s/ Eli Richardson
ELI RICHARDSON
UNITED STATES
DISTRICT JUDGE

App. 48
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
JOHN J. SHUFELDT, M.D., )
)
Plaintiff,
)
NO. 3:17-cv-01078
v.
)
) JUDGE RICHARDSON
BAKER, DONELSON,
)
BEARMAN, CALDWELL
)
and BERKOWITZ, P.C.,
)
Defendant.
)
ORDER
(Filed Jul. 23, 2020)
Pending before the Court is Defendant’s Motion
to Dismiss (Doc. No. 74) (“Motion”). For the reasons
stated in the accompanying Memorandum Opinion,
the Motion is GRANTED, and this action is DISMISSED.
Accordingly, the Clerk is directed to close the file.
This Order shall constitute the final judgment for purposes of Fed. R. Civ. P. 58.
IT IS SO ORDERED
/s/ Eli Richardson
ELI RICHARDSON
UNITED STATES
DISTRICT JUDGE

App. 49
SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CV 2015-054203

03/09/2016

HONORABLE JOHN R.
HANNAH JR

CLERK OF THE COURT
W. Tenoever
Deputy
MICHAEL C MCKAY

JOHN SHUFELDT
v.

NEXTCARE HOLDINGS
INC, et al.
HAL MICHAEL CLYDE
RULING
Courtroom 102 - NE
10:33 a.m. This is the time set for Oral Argument
on Defendants’ Motion to Dismiss. Plaintiff John
Shufeldt is represented by counsel, Michael C. McKay,
Gregory E. Del Gaizo and Ryan Sedillo. Defendants
Nextcare Holding, Inc., et al. are represented by counsel, Hal Michael Clyde and Eric D. Brandfonbrener.
Court Reporter, Cindy Lineburg, is present. A record
of the proceeding is also made by audio and/or videotape.
Arguments are heard.
IT IS ORDERED the motion to dismiss is denied.
The statute of limitations issue at a minimum depends
on disputed questions of fact that the Court cannot resolve at this stage of the litigation.

App. 50
The Court finds that the relevant forum selection
clauses are: the two stock purchase agreements, the
investor’s rights agreement and the agreement that
gives the plaintiff preemptive rights. Those are matters outside the pleadings that were presented to the
Court.
The complaint is not directly based on those matters so it is not fair to the plaintiff for the Court to consider them as conclusive today. Accordingly,
IT IS ORDERED treating defendants’ motion in
that respect as a motion for summary judgment to allow the plaintiff a reasonable opportunity to present
all material made pertinent to such a motion.
IT IS FURTHER ORDERED that plaintiff shall
have until March 30, 2016 in which to file a response
to the summary judgment motion (which may include
a request for Rule 56(f ) relief ).
If there is a Rule 56(f ) request then court staff will
contact counsel to set that as a priority.
11:25 am. Hearing concludes.

App. 51
IN THE SUPERIOR COURT
OF THE STATE OF ARIZONA
IN AND FOR THE COUNTY OF MARICOPA
JOHN SHUFELDT,
Plaintiff,
vs.
NEXTCARE HOLDINGS
INC., et al.
Defendants.

)
)
)
) No. CV2015-054203
)
)
)
)

Phoenix, Arizona
March 9, 2016
BEFORE: THE HONORABLE JOHN R. HANNAH, JR.,
Superior Court Judge
REPORTER’S TRANSCRIPT OF PROCEEDINGS
Oral Argument on Motion to Dismiss
Cindy L. Lineburg, RPR, CR, CSR(CA)
Official Certified Reporter
CR No. 50031
[2] APPEARANCES
For the Plaintiff:
MICHAEL C. MCKAY, Attorney at Law
GREGORY E. DEL GAIZO, Attorney at Law
RYAN M. CIVIELLO, Attorney at Law

App. 52
For the Defendants:
HAL MICHAEL CLYDE, Attorney at Law
ERIC D. BRANDFONBRENER, Attorney at Law
[3] Phoenix, Arizona
March 9, 2016
(The following is a transcript of proceedings held
before the Honorable John R. Hannah, Jr., Superior
Court Judge.)
THE COURT: This is Shufeldt versus Nextcare Holdings. CV 2015-054203.
Counsel, please introduce yourselves for the record.
MR. DEL GAIZO: Your Honor, Gregory Del
Gaizo and Ryan Civiello, Mike McKay for the plaintiff.
THE COURT:

All right.

MR. CLYDE: Your Honor, Michael Clyde
and Eric Brandfonbrener representing all defendants.
THE COURT: Okay. This is the time set for
argument on the defendant’s Motion to Dismiss. I have
read the papers. I’ll give you all the floor and let you
add whatever you would like to add.
MR. CLYDE: All right. Thank you, Your
Honor. May it please the Court, and of course I’d like
to know, at any time, what you’d like to hear about. So
if I’m boring you, let me know.
Two things I think are important to understand
right up front, and they’re reflected throughout the

App. 53
[4] complaint. Number one is Mr. Shufeldt is a very sophisticated guy. He is a practicing lawyer, has been for
years. I don’t mean just a businessman who also is a
lawyer. He’s a practicing lawyer, he’s of counsel to a
firm here in Phoenix and he holds himself out as an
expert in a variety of matters, including administrative and regulatory matters and health care litigation.
He founded Nextcare, he ran Nextcare for years until
June of 2010.
The second fact that is important to understand,
and again, this is reflected in the complaint, is that this
was not a happy parting of the ways. Mr. Shufeldt ran
Nextcare until June of 2010. At that point he believes
he was forced out of his position as chief executive officer. He retained the position of chief medical officer
and chairman of the board of directors through August;
but, again, he resigned in August of 2010 under what
he describes in his complaint as intense pressure from
the board of directors and from one of the defendant’s
in particular, Enhanced Equity Fund, often referred to
as EEF. So it wasn’t a happy parting of the ways and it
hasn’t been since that time.
I would focus on two things, and the one will be
fairly short, unless the Court has some questions about
it.
The first is the applicable law. And the applicable
law is clearly the Arizona statute of [5] limitations, the
two-year statute of limitations. Section 142 of the Restatement is the provision that two Supreme Court
cases have held governs the decision on which statute

App. 54
of limitation applies when statutes from various cases
could apply. And Section 1 of Section 142 is a very simple rule. It simply is that if the case is barred by the
forum statute of limitations, the case is barred. You
don’t go looking for other statutes in other jurisdictions.
Now, the Jackson case and the DeLoach case we’ve
cited, two Supreme Court cases adopting Section 142,
involved a different situation where the forum state, in
both cases Arizona’s statute of limitations permitted
the case to go forward, but the case was barred in other
states that may have had an interest. In that situation
you do do an interest analysis and figure out which
state has the primary interest. But if the forum state
statute bars the claim, then the case doesn’t go forward
in the forum state, and neither the plaintiffs nor we
have cited any case where you look to another state for
a statute of limitations when the forum state bars it.
And I think it’s important to look at Comment F of
Section 142, because that explains the rationale for
that rule. And it simply is that the forum state has an
interest in deciding what cases it’s going to take and
what cases it’s not. And if the case is barred in the forum state, [6] there’s no point in looking elsewhere because that state in which the case has been filed has
the right to regulate what cases come in.
Now, Mr. Shufeldt had a variety of options here. He
could have filed this case in Delaware. In fact, as we
suggested in our papers, he should have filed his
case in Delaware, because this case arises out of the

App. 55
agreements by which he received and – received his
stock, and this is a stock dilution case. But he didn’t.
He didn’t choose Delaware, he chose Arizona, and having done that, he’s stuck with the statute of limitations
here.
The second point is I’d like to look at the complaint
and address the reasons why this case is barred under
the allegations of the complaint. And I’m going to, if I
may, Your Honor, put up one visual and hand the Court
a small copy, and I’ll give one to Plaintiff ’s counsel so
they – just in case they can’t see the big one.
These are all statements taken from the complaint
and from the Plaintiff ’s Response to the Motion to Dismiss. And what these statements confirm is that Mr.
Shufeldt plainly had knowledge of his claims. Did he
know all of the detail that he eventually learned by
2015? No. But it’s not necessary in Arizona because he
was on notice to investigate and, in fact, was investigating the basis of his claims as early as October of
2010.
[7] THE COURT: But what if he didn’t get
the information that he needed to determine whether
he actually had a claim until 2015?
MR. CLYDE: Well, that’s a very interesting
point, Your Honor, because it’s his obligation to get that
information. He filed a Delaware 220 –
THE COURT: If he sues for it and doesn’t
get it, then he’s out of luck?

App. 56
MR. CLYDE: Yes, and, in fact, what he – Delaware Section 220 is a very specific statute. I’m sure
the plaintiffs deal with it all the time. I do. Delaware
220 says that if you’re a shareholder you make a shareholder demand for information, and the company has
10 days to respond to that shareholder demand. Now,
that demand can be extended by agreement, but the
whole process is expected to be wound up in a matter
of weeks, not years.
Now, what happened here was that Mr. Shufeldt
made his request, Nextcare responded. They don’t give
you any information about what happened next because what happened next was nothing. They let that
just lie.
Now, if they had tried to file without renewing
their request in 2015, Delaware chancery court would
have thrown them out on their ear because they didn’t
proceed to prosecute the 220 request. And 220 –
THE COURT:
pleadings now.

We’re pretty far beyond the

[8] MR. CLYDE: Well, we are beyond the
pleadings, Your Honor, but it’s their responsibility to
explain why they didn’t pursue that 220 request, because when they made the 220 request in February of
2013, they admit they did that because he had suspicions.
Now he had more than suspicions, Your Honor, and
that’s why we need to look at what the complaint says
about the request in – I’m sorry – about the 2010

App. 57
challenge transaction. This is in October of 2010. This
is the stock offering that was made available to everyone. Mr. Shufeldt could have participated in it, a number of shareholders did participate in it. And he said
that this was what he knew about that stock offering,
that it was to take advantage of the plaintiff ’s departure and seize control of the company.
That’s in paragraph 3 of the complaint. He knew
that the Enhanced Equity Fund, EEF, was acquiring a
commanding stock position at a deep discount, which,
in turn, caused the near total dilution of Plaintiff ’s
holdings. He knew that. And he confirms in paragraph
27 of the complaint that this offering allowed EEF to
invest only 2.5 million, yet dilute plaintiff ’s holdings
into a negligible amount and secure complete control
of the company.
Now, we’re talking about a man who had been the
vast majority shareholder until 2009, and he alleges in
his [9] complaint, paragraph 25, that that share holding was reduced from 54.28 percent to 42.25 percent by
EEF’s acquisition of shares, and they were – he was
further diluted by this 2010 offering. And he knew all
that, no question about that, because that’s what he
alleges in his complaint.
The plaintiffs also make a telling admission in the
next sentence of paragraph 27, because they say at the
time Plaintiff had no way of knowing the valuation
manipulations. I’m going to address that one in just a
second, but that’s not true based on other allegations
in the complaint. But they say –

App. 58
THE COURT:
Motion to Dismiss?

Well, can I resolve that on a

MR. CLYDE: You can if you have contrary
allegations. He’s trying to take two positions here, and
the facts that are alleged, that’s just a conclusion, and
so you don’t have to credit that. You can test that
against the facts that have been alleged in the complaint. But he goes on to say that even if he did know
of the manipulations, he was not financially in a position to challenge the valuations having just lost his
main source of income.
And one of the remarkable things about this complaint, Your Honor, is they give you three pages of excuses about why it wasn’t filed on time. They know it
wasn’t filed on time. And to say that I’m not financially
[10] in a position to pursue the litigation and so, therefore, I won’t, may be a rational economic decision, but
it doesn’t toll the statute of limitations.
There is no case cited by the plaintiffs or by us,
and there isn’t one you’ll find in the entire record that
says that just because a plaintiff feels like he doesn’t
have enough money, he can sit back and let his claim
go forward until he does have that money.
But here’s why Mr. Shufeldt did know, and again,
this is based on the allegations that he made in the
complaint. First of all, he admits that he was a – the
chairman and chief executive officer until June. He
continues as the chairman and chief medical officer
until August. This offering is made in October. Mr.

App. 59
Shufeldt had intimate knowledge of the financial operations of the company.
THE COURT:

How do I know that?

MR. CLYDE: He was the chief executive officer. And during the period that he was chief executive
officer Nextcare hired Certus to do a valuation of the
company in 2009. Now how do you know that? They
allege it in the complaint. They allege in the complaint
that the Certus valuation shows that the August 2010
valuation was manipulative. But Mr. Shufeldt was the
chairman and chief executive officer.
[11] THE COURT:
about it?
MR. CLYDE:
THE COURT:
MR. CLYDE:

Does that mean he knew

Is he going to say he didn’t?
I don’t know.
Well, Your Honor –

THE COURT: I mean – I’m jousting with
you a little bit, but the – let me cut to the chase here.
Is there any Arizona – is there any reported Arizona
case that grants a Motion to Dismiss on statute of limitation grounds on facts remotely like these?
MR. CLYDE:
Kowske case.
THE COURT:

Yes, sir. The Kowske case. The
Which one is that?

MR. CLYDE: The Kowske case is a medical
malpractice case, and it is similar in this sense, and I’ll

App. 60
give you the citation to it. It’s Kowske v. Life Care Centers of America, Inc. And the interesting thing about
Kowske is this is a medical malpractice case, and one
of the things that you’ll see a tremendous difference in
is the cases that involve sophisticated parties and the
cases that don’t.
This is actually a case that doesn’t involve a sophisticated party. This involved a man and his daughter who were suing for a relative’s – a wrongful death
action relating to a relative who died in nursing care.
And what happened in that case was they got an autopsy report, they ultimately consulted a lawyer, the
lawyer ultimately [12] consulted an expert witness,
and when the expert witness gave the lawyer the report, they said our statute of limitations starts to run
now.
And the Court of Appeals said no, the statute of
limitations actually started to run long before that.
What you needed or what you felt you needed was confirmation of your beliefs or your suspicions, and the
court said the discovery rule applies to the facts which
give rise to the cause of action, not to the legal significance of such facts.
They knew the facts. They had the autopsy report.
They knew that the relative was dead, and by taking it
to a lawyer and then taking it the next step to get an
expert witness opinion, it was useful, but they were
already on notice and so the statute of limitations was
running.

App. 61
Now, the plaintiffs may come back and say, well,
wait a second, the Walk v. Ring case criticizes Kowske.
And it does, but not for that holding. The Walk v. Ring
case is another medical malpractice case. It involved
some dental malpractice. And in that case the client
had gone to – the plaintiff had some surgery to repair
TMJ, and he still had pain. He went back to his dentist
and he said I still got pain and the dentist said well,
it’s not my fault.
Now, the defendants moved to dismiss – I can’t remember whether that one was a Motion to Dismiss
or a [13] Motion for Summary Judgment, but the Supreme Court reversed because they said, you know,
we’re not convinced that he really had any facts to suggest that this was attributable to the dentist; and, in
fact, his own dentist said something to him that put
him off the hunt. The dentist said it wasn’t my fault.
And so they considered that to have been a statement
that deceived this unsophisticated party.
Now, the key fact here is that Mr. Shufeldt doesn’t
stand in any kind of a similar position to the plaintiff
in the Walk v. Ring case, and he’s much more sophisticated than the plaintiffs were in the Kowske case. But
what he knew and what – all he needed to know is,
number one, he believed he had been injured; number
two, he knows the facts that give rise to his claim, he
knows that the injury is stock dilution, and he knows
he has been diluted by these two offerings that take
place, one in 2012 and one in 2010.

App. 62
And he also knew who he believes is responsible.
He believes the board of directors and Enhanced Equity Fund are responsible for this because they’re the
people that had forced him out and have been on a pattern of reducing his stock holding from, what, in 2000
– before the August 2000 – I’m sorry – before the October 2010 transaction was 42.25 percent to, as he
acknowledges in his complaint, a negligible amount.
[14] So he knows everything that he needs to proceed. And what we’ve got in February of 2013 is he
makes a Delaware general corporation, a 220 request
for more information. He doesn’t follow up on that, but
he made the request. And this is – this is comparable
to the people in the Kowske case going to a lawyer.
Again, this is not a happy relationship between
Nextcare and Mr. Shufeldt. And Mr. Shufeldt is no babe
in the woods. He’s a sophisticated businessman and a
lawyer, and he knows exactly what his injury is, it’s
dilution of his stock. That’s right in front of him.
He knows the price at which he’s been diluted because the price was in the offering documents that was
made in both 2010 and 2012. He knows who’s responsible for this, it’s the board of directors, and he believes
that EEF is behind the board of directors’ actions because he alleges all of that in the complaint.
What he failed to do was to pursue that to an end.
And why? He does give us an excuse, and it’s the one I
referred to before. I couldn’t afford it. I didn’t want to
make these guys mad because they were paying for a
defense of very serious claims brought by customers,

App. 63
by state regulators, and by federal regulators that
were making very serious charges against Mr. Shufeldt
and against Nextcare.
And as I said, that may be a rational economic [15]
decision. He may have decided I better not spend my
money pursuing a claim against Nextcare right now, I
better consolidate my resources, make sure they continue to pay my severance payments, make sure that
they continue to fund my defense in these actions. But
that doesn’t toll the statute of limitations. If you wish
to pursue those claims, he had to pursue them then.
And that the facts are all laid out right in their complaint, and even confirmed in their response brief.
So I submit that while it is not typical for these
kinds of issues to be granted on a Motion to Dismiss, it
certainly is permissible, and in this case it’s required
because all of the facts to show his knowledge are in
the complaint, and those facts put on him a duty to
pursue his inquiry, which he chose not to do until he
felt more comfortable about his financial position in
2015.
THE COURT: What about, are you still pursuing your alternative argument? What if I don’t agree
with you on the statute of limitations?
MR. CLYDE: Well, if you don’t agree with us
on the statute of limitations, this certainly is the wrong
court in which this was filed, because the agreements
by which Mr. Shufeldt acquired his stock were all
agreements that contained a provision that said any
matter arising out of this must be resolved in a federal

App. 64
or state court sitting in [16] the State of Delaware. And
so this is the wrong court to do this anyway. He chose
it, though, and having chosen it, he is bound by the
statute of limitations that prevails in this forum.
THE COURT:

All right. Thank you.

MR. DEL GAIZO: Thank you, Your Honor.
Gregory Del Gaizo for the plaintiff. Your Honor, I think
in Your Honor’s you questions really hit the nail on
the head. The only case that Defendants could cite
that has anything close to a court granting a Motion to
Dismiss on facts like this is Kowske, and that case has
been heavily criticized in the Walk v. Ring case. And
it makes sense because it has to be conclusive on the
face of the complaint in order to dismiss an action at
the Motion to Dismiss stage on statute of limitation
grounds.
And if we just look at this demonstrative that defense counsel has brought up, we can see that there are
significant inferences that you have to draw in Defendant’s favor to get anywhere near knowledge of this
2010 transaction. I mean, look, they’re saying that our
client – and he’s a smart guy, I don’t dispute that – our
client should have remembered the valuation that happened a year – over a year before this equity dilution
because he was an executive a couple months before
the equity dilution, should have figured out what the
valuation was in 2009, kept [17] that in mind, reverse
engineered what the dilution amount was and saw
that somehow the revenues didn’t match.

App. 65
And they’re asking him to do that. And it’s not in
a vacuum, it’s when at the same time they’re telling
our client that the company’s in dire straits, it has to
raise this money or we’re going to go bankrupt. And,
you know, defense counsel just said, we’re not like Walk
v. Ring. The plaintiff here isn’t in any similar situation.
That’s not true.
Defendants owed my client a fiduciary duty. They
owed all stockholders a fiduciary duty. They had to tell
them the truth. So if they’re coming out there and saying, well, this deal is on the up and up, this is the deal
that we have to do, our client’s entitled to rely on that.
And it is, you know, far beyond anything I’ve ever seen
on a Motion to Dismiss when you have to take all the
allegations in my client’s favor and draw the inferences
in my client’s favor to say that you have to go through
these hoops to get to knowledge; and if you have to go
through these hoops, if you have to draw and say, well,
in 2009, plus CEO, plus, you know, he’s a smart guy,
that’s not conclusive on the face of the complaint, Your
Honor. Whatever else we can say about that.
And I want to get into this dilution argument because there’s a lot of statements about, well, he knew
he [18] was being diluted. Your Honor, dilution happens. It’s an ordinary thing that happens within business. We don’t want shareholders rushing to file suit
just because someone was diluted. That’s the harm, I
agree. He was harmed by that dilution.
But that wasn’t the wrong. And Walk v. Ring says
you have to have sufficient facts to show notice to

App. 66
identify the harm and identify the wrong. The wrong’s
not the dilution, the wrong is the manipulation of the
valuations, and the only people, Your Honor, with control of that information is Defendants. They didn’t disclose the valuations, they didn’t show what they did.
None of that information was public, so there’s no way
for him to know that information.
And, you know, this comes right from their brief.
They say, you know, reasonable diligence could have
learned of the claim. Well, diluting stock is not a claim.
There’s no claim for that. There’s no wrong just for
diluting stock. Every time GE issues stock, we don’t
want all their shareholders to come sue. We have to
connect it to the wrong. And in 2010, you know, it’s
true, you know, this was not a happy divorce, but 2010,
it wasn’t anywhere where it was like now, where
they’re at loggerheads, you know, and they still owed
him the fiduciary duty.
Now, there’s a couple other statements on this [19]
chart. Paragraph 3. If Your Honor looks at Paragraph
3, none of it speaks about what the plaintiff knew in
2010. It doesn’t talk about that at all. It does talk about
their scheme. Those quotes are right. That’s what
we’ve learned in 2015 after getting the documents, but
he didn’t know that information in 2010. And the complaint says that. Paragraph 27, which defense counsel
is nice enough to read off, actually comes right out and
says he had no idea that this valuation analysis was
being done.

App. 67
Now, onto the 2012 transaction. And you’ll notice
the 2012 transaction doesn’t have the same, you know,
connect the dots like 2010, because here, at this point,
he’s already been gone for two years. So they can’t even
bring in that argument that, well, he used to be the
CEO, because by three years, even I guess Defendants
admit that the valuation in 2009 doesn’t work anymore.
So, in 2010 all they can point to is, well, there’s a
dilutive effect. I already explained, Your Honor, dilution doesn’t mean brawn, dilution just means business.
Now, what did our client do? He was suspicious,
and he does make the inspection demand, and the defendants have really keyed in on that and said well,
here, obviously he’s got an inquiry notice, he’s suspicious. But the very cases they themselves cite completely cut against that argument. They cite the
Hobson v. Wilson case, Your Honor, [20] and it’s worth
reading, it says: By notice we refer to an awareness of
sufficient facts to identify a particular cause of action.
We do not mean the kind of notice based on hints, suspicions, hunches or rumors. That’s their very case.
Their very case says suspicion is not enough.
Now, is suspicion enough to investigate? Yes. It is
enough to investigate, and that is why he did do the
Delaware inspection demand, to get the documents the
only way he could. Because he had – they’re not in the
public, there’s no other way to get it, he has to do the
inspection demand.

App. 68
Now, in the reply, and they didn’t quite say it again
here, but in the reply they say the inspection demand
was rejected. Well, I went back through my complaint
– sorry – Plaintiff ’s complaint, Your Honor, and nowhere in the complaint does it say the inspection demand was rejected because, Your Honor, that’s not
what happened.
In fact, the complaint says the exact opposite. It
says in response Defendants promised to give our client documents. I have the e-mail from defense counsel
right next to me and it is an April 30th e-mail saying:
My information is that our client has prepared the materials to provide your client and is in the process of
checking through them now. I expect next week that
these would be out. This is April 30, 2014.
[21] Your Honor, even if we accept Defendant’s
argument that they had to keep pursuing – that my
client had to keep pursuing the 220, which we don’t
accept, but if we do accept that, then it’s after this
statement. This is the promise to give us documents.
Now, they don’t follow through with it, so at that point,
using Defendants’ argument, our client’s on notice.
Well, if our client’s on notice at that point, that’s
when the statute of limitation starts running. The statute of limitations starts running in April 2014. He realizes they don’t get the documents, you know, May,
June, so he’s got two years from that point. That means
he has until May 2016 to file his action, even using
their argument. This case is timely.

App. 69
Now, he has been diligent, so I’m not saying I accept their argument, he has been diligent. He made the
inspection demand. They negotiated for documents
with previous counsel, Mr. Shufeldt’s previous counsel.
Then he retained us, then we did the new inspection
demand. They gave us a bunch of documents. We
looked through them, none of them had anything to do
with valuation. They promised to give us more documents. Nothing came.
We said we’ve seen this movie before. We filed the
220 case. We finally got the valuation documents.
That’s when we learned. And those valuation documents [22] demonstrated why they had been pushing
so hard not to give us documents, why they’re going for
this hail Mary pass here on the statute of limitations.
It shows there’s been massive manipulation. It shows
our client is owed millions and millions of dollars by
Defendants.
And because of the way the law works, under Delaware law, they’re going to have the burden of showing
the entire fairness of their dealings, and they’re not
going to be able to do that. So now they’re going for this
hail Mary statute of limitations, and it just doesn’t fly,
Your Honor. There’s no way that this is proper on a
Motion to Dismiss, looking at this chart right here.
THE COURT: Let’s say I agree with you.
What happens to the case next? Do you get to stay here
or do you have to go to Delaware?
MR. DEL GAIZO:
here.

Your Honor, we get to stay

App. 70
THE COURT:

Why?

MR. DEL GAIZO: Well, first of all, those
agreements that they put into the Motion to Dismiss,
in their Motion to Dismiss they come right out and say
they’re not attached to the complaint, they’re not referred to by the complaint, they haven’t – they did not
seek judicial notice of those documents. They should
not be considered on the Motion to Dismiss.
THE COURT: All that means is, you know,
at best, from [23] your point of view, I tell you I’m treating it as a Motion for Summary Judgment and give you
some more time to respond to it. So, you know, maybe,
maybe you can talk me out of doing it today, but that’s
not going to talk me into making them start over.
MR. DEL GAIZO: I understand, Your Honor.
A lot of these agreements, that they call them, have
nothing at all to do with what is going on here.
THE COURT:

I see that.

MR. DEL GAIZO:
tion agreement.
THE COURT:

We have an indemnifica-

I see that.

MR. DEL GAIZO:
indemnification.

Our client is not seeking

THE COURT: Some of them are – they’re
the transactions where your guy was issued the stock.
MR. DEL GAIZO: Well, he wasn’t issued the
stock in these actions, though. He wasn’t issued the

App. 71
stocks in the actions he was – we’re challenging right
here. He might have had – he might have been offered
them, but he didn’t agree to it. He didn’t have any
money –
THE COURT: But the stock that was diluted is the stock that he was issued in those prior
transactions, right?
MR. DEL GAIZO: That’s right, Your Honor.
This case arrives out of common law state breach of
fiduciary duty. [24] It is a – it is purely common law, it
is not contract. Those agreements talk about disputes
arising from themselves.
THE COURT: The agreement says: Any action brought by any party under or related to this
agreement, including, without limitation, to enforce
any provision of this agreement, and whether arising
in contract, tort, equity or otherwise. It’s pretty broad
and it’s clearly not limited to actions on the contract.
MR. DEL GAIZO: It is very broad, Your
Honor. You know, if Your Honor is inclined to go that
way, I would ask that you change this to a Motion for
Summary Judgment, we conduct discovery and we
actually look into these agreements and figure out
whether they actually cover this cause of action or not.
My belief, Your Honor, is they do not.
THE COURT: Okay. Well, I’m inclined to –
I’m inclined to grant you that, but that language, especially when you put it together with the other one that
gives the – specifically gives him rights, gives your

App. 72
client rights in – with respect to the issuance of new
shares, and says, you know, he has a right of first refusal and so on, that’s right in the wheelhouse of this
case, I think.
MR. DEL GAIZO:
THE COURT:

Your Honor –

So . . . Anyway.

MR. DEL GAIZO:

Yes.

[25] THE COURT: I’m not going to decide
that today, so I guess I’m just kind of musing out loud,
so – but I don’t need to hear – on the statute of limitations, I don’t need to hear anything more. Let me hear
from the other side.
MR. DEL GAIZO:
THE COURT:

Thank you, Your Honor.

All right.

MR. CLYDE: Your Honor, the Court’s absolutely right on the Delaware law issues. The stock was
issued pursuant to those agreements and the preemptive rights which granted him the opportunity to participate in these transactions are granted by those
documents, and so his involvement in those transactions are by virtue of those documents.
Now, I give the plaintiffs credit. This was a very
carefully pled complaint. They tried very hard to avoid
the Delaware law provisions in those agreements.
They tried very hard to avoid the facts that they really
have to admit in there.

App. 73
As I say, Mr. Shufeldt is a sophisticated guy. He’s
not the poor guy who’s had the operation on his mouth
and he doesn’t know why it still hurts. He knew exactly
what had happened. And they say that the valuations
were not disclosed –
THE COURT:
know why.

He knew it hurt, but he didn’t

MR. CLYDE: Oh, he knew why. He knew exactly why, because he knew that stock that had once
been very valuable [26] was now worth nothing. He
knew about the valuation. He may not have known
how they got there, but he knew the valuation because
the valuation is inherent in the offering. You can’t look
at an offer to sell you stock for a specific amount and
say, whoa, I guess I don’t know how much this is worth.
THE COURT: Well, maybe it’s that – you’re
right. The analogy doesn’t work quite right. Go ahead.
MR. CLYDE: And that’s my point, that when
you try to analogize these medical malpractice cases,
it’s better to look at some other cases. Look at the
Richards v. Powercraft Homes case. That’s very similar
to this. Not a Motion to Dismiss, it’s a Motion for Summary Judgment, but you’re really looking at the same
basic issue.
There you have homeowners that knew stuff was
wrong with their house and they filed a complaint with
the Registrar of Contractors. And they said, hey, we
didn’t have to bring our action until the Registrar of
Contractors held a hearing, because that’s when we

App. 74
learned how our problems were caused. And the court,
the Court of Appeals, specifically affirmed by the Arizona Supreme Court, said no, you knew what the harm
was, you knew generally how it was affecting you, and
you knew generally who was responsible. You filed the
complaint with the Registrar of Contractors against
these contractors, so you had some general idea. [27]
True enough, you learned exactly how it happened in
the hearing, but you waited too late by waiting until
the hearing.
And so the Richards v. Powercraft Homes is another good case. Sato v. Van Denburgh, another case
that involves a professional.
THE COURT:
ment cases.

But those are summary judg-

MR. CLYDE: They are summary judgment
cases. But we have effectively the same thing here. The
plaintiff can’t create a disputed issue of fact by pleading inconsistent facts. I mean, you can look at – and as
I said before, he hasn’t really pled inconsistent facts,
he’s pled facts that show his knowledge. He then tries
to excuse his knowledge by saying, well, I didn’t really
understand. That is not a fact, that’s a conclusion, and
you can examine his conclusion in light of the other allegations that he has pled.
Now, what we heard today, talk about going outside of the complaint, the whole issue on the February
2013 Delaware 220 request. All we’ve got in the record
is that he made it and then he didn’t do anything about
it until 2015. There’s a good reason for doing that, but

App. 75
they are responsible. If that’s going to be the basis for
arguing tolling, they have to plead the facts on which
that should be based, and they haven’t.
[28] Because the April – the Delaware 220 request
was denied within 10 days. What he was reading was
an exchange between my partner, Mr. Brandfonbrener,
and their new firm after that 220 request was renewed.
THE COURT: Wait a second. Go back to
something you just said. You said they have to plead
the facts that would support tolling.
MR. CLYDE:

Yes.

THE COURT: What’s your authority for
that? I mean, it’s one thing to say that the complaint is
barred on its face; it’s another thing to say the complaint might be barred and they have to plead the facts
that show it’s not.
MR. CLYDE: Well, they’re actually saying in
their – they’ve got three pages where they supposedly
say this is why our late filing should be excused. They
have recognized that they have an affirmative obligation to come forward and plead facts that would allow
you to say, okay, I will grant equitable tolling.
That’s an affirmative defense to this claim, and so
in trying to argue that you should be looking at their
subsequent conduct as an excuse that allows them to
file late, they have to plead those facts. And they haven’t pled those facts. What they pled was a Delaware
220 request made in February 2013, which they finally
got documents from in 2015. But they don’t explain

App. 76
what happened in between, [29] because the explanation there can’t be made under Delaware law. That’s
my point.
THE COURT:

Okay.

MR. CLYDE: So for him to refer to an April
2014 e-mail as some argument here, I’m just telling
you, Your Honor, there’s a lot that happens between
then and there, and it can’t be justified under the law
of Delaware.
Now, we return again to what does the plaintiff
need to know. He doesn’t need to know how the manipulation took place, he doesn’t need to know what valuations were looked at. He knew enough to know that
he had been injured.
THE COURT: But he does need to know –
okay. Just to make sure I understand, he does need to
know that the company was undervalued.
MR. CLYDE: Yes. Well, he needs to know
that he’s being diluted.
THE COURT: No, he needs to know that the
company’s undervalued and, therefore, the dilution
was wrongful.
MR. CLYDE: He doesn’t need to know that
the dilution – if he knows that he’s being diluted and
he understands – and he doesn’t know whether the valuation’s appropriate or not, he knows enough to make
an inquiry at that point.
THE COURT:

Right.

App. 77
MR. CLYDE: And that’s what he didn’t do.
In fact, in [30] connection with the 2012 transaction, as
it says right here, Plaintiff knew the materials didn’t
include enough information for stockholders to decide
whether to invest in the company.
THE COURT: But then the question is
whether he should have figured it out before he did.
MR. CLYDE:
THE COURT:

Well, he didn’t.
And that’s a fact question.

MR. CLYDE: Yeah, he didn’t invest in the
company, so he made a choice. But he knows that this
company is substantially undervalued, according to
the information that he has. That’s why he makes the
Delaware 220 request in February of 2013.
Now, does he have perfect knowledge? No. But he
knows enough to be in the same position that the
plaintiff was in Kowske, that the plaintiff was in the
Powercraft case. The Coronado Development case is
another great case where the court finds that inquiry
notice doesn’t require actual discovery of the reason for
the injury. He knew enough and was actually trying to
pursue, but he acknowledges he stepped back and
didn’t pursue his suspicions.
That’s where the problem is here, because with
knowledge to know that he should investigate, he
chooses not to, and he gives you as his excuse that he
was concerned [31] that he would interfere with his
severance and indemnity payments that he was receiving from Nextcare.

App. 78
And as I said, perfectly rational economic decision,
but there are consequences to that, because a plaintiff
who decides for economic reasons not to pursue a claim
that he knows he – well, that he may not know he has
a totally justifiable legal claim, but he knows he’s got
enough of a claim to pursue it and investigate it. The
fact that it may cost him money isn’t a sufficient basis
to back away from doing so.
The Coronado Development case is the case of a
land exchange, and in connection with that land exchange the developer said to the purchasers, you know,
somebody’s building a road across the piece of property
you purchased, so let’s change and you can take this
other one. And the purchaser said okay. They did the
land exchange.
They subsequently spoke to a lawyer, and the lawyer said just this word: You’ve been had. They chose not
to follow up on that. Now, they had a suspicion that
they had been injured, they knew that they had made
the exchange, and they knew that they made it based
on the representation, and the Court of Appeals said
that was enough to trigger your knowledge, and the
fact that you didn’t have details about this doesn’t matter.
In fact, they went on to say that it is true here [32]
that the respondents did not know every detail of the
alleged fraud; indeed, they did not have actual
knowledge that the fraud had even occurred. However,
a person does not have to know every fact about his
fraud claim before the statute begins to run. And they

App. 79
were charged with knowledge the minute they had the
suspicions, that they went to the lawyer who told them
they had been had.
That’s the situation we’ve got here, Your Honor. A
sophisticated investor, a lawyer, knows enough to know
that he has an obligation to proceed with an investigation and drive this thing to ground one way or another.
And if he chooses not to do it for financial reasons, then
the statute of limitations is not tolled during that period.
THE COURT:

All right. Thank you.

MR. CLYDE: May I just suggest to the
Court, focus on just these paragraphs of the complaint,
because these are the ones that carry the admissions
that this motion is based on. Three, four, 25 to 27, 35
and 45. They’re referenced there, too, but just for the
Court’s easy access, if you want to just take a look at
those provisions.
THE COURT:

All right.

MR. DEL GAIZO:

Your Honor, just one mi-

nute?
THE COURT:
limitations?

On what, on the statute of

MR. DEL GAIZO:
THE COURT:

Yes.

It’s not necessary.

[33] MR. DEL GAIZO:

Okay.

App. 80
THE COURT: I’m going to rule from the
bench. The Motion to Dismiss is denied. The statute of
limitation issue, at a minimum, depends on disputed
questions of fact that the Court cannot resolve at this
stage of the litigation.
The Court does not accept the proposition that the
plaintiff has to plead all of the facts that would defeat
a summary judgment – that would defeat the statute
of limitations. That’s not what the law is. The law is
that it has to be clear on the face of the complaint that
the statute has run.
The case, the one dismissal case that’s relied on by
the defendants, even if it’s good law, which is questionable, the facts are different, because what’s at issue
here is whether the plaintiff knew the – knew that the
company was undervalued. That’s the key. And the – it
appears that he did not know that until 2015. Whether
he should have known it before then, that’s a different
question. But I can’t say on the facts in the complaint
that he should have known it before 2015.
The chart that attributes knowledge to the cited
paragraphs of the complaint, the complaint just doesn’t
say that. It makes those allegations, but it does not
allege that the plaintiff knew those things at the – in
2010 or in [34] 2012. And all the talk about what
should have happened as a result of the plaintiff ’s demand for information, whether it was responded to,
whether he was shined, that’s all factual and matters
that the Court cannot resolve on a Motion to Dismiss.
So those are the reasons for the Court’s decision.

App. 81
That’s, of course, assuming for the sake of the argument that the Arizona statute of limitations applies,
the plaintiff never really responded to that, but I assume that for the sake – for purposes of this decision.
Now, as far as whether this is the – whether the
forum selection clause in these agreements is enforceable, and I’m going to specifically say that it appears to
me that the relevant forum selection clauses are the
two Stock Purchase agreements, the Investors’ Rights
agreement, and the agreement that gives the plaintiff
rights, preemptive rights. I’m not sure if that’s the Investor Rights agreement or if it’s some other agreement, I haven’t taken the time to put things together
that carefully, but the -those are matters outside the
pleadings that were presented to the Court.
The complaint is not directly based on them, so I
don’t think that it’s fair to the plaintiffs for me to consider them as conclusive today, but I do think it’s appropriate to treat the defendants’ motion in that
respect as a Motion for Summary Judgment and give
the plaintiffs an [35] opportunity to – reasonable opportunity to present all material made pertinent to
such a motion.
Are you all going to take the position that you need
to do discovery on this?
MR. DEL GAIZO:

Yes, Your Honor.

THE COURT: Okay. Then – and is the defendants’ position going to be that this can be decided
as a matter of law without discovery?

App. 82
MR. CLYDE:

Yes, Your Honor.

THE COURT: Okay. Then I think probably
what we need is a – either a response or a Rule 56(f )
motion.
MR. DEL GAIZO:
THE COURT:
me a deadline.

Okay, Your Honor.

When can you do that? Give

MR. DEL GAIZO:

Can we have a week, Your

Honor?
THE COURT: That’s – sure. That’s fast. I’ll
give you more than that if you want it.
MR. DEL GAIZO: Sure. Could I have a
month then?
THE COURT: Well, all right. Careful. Let’s
say, since you have been thinking about this for a
while, I’m not going to give you a month from today,
but I’ll give you until the 30th of March –
MR. DEL GAIZO:

Thank you, Your Honor.

THE COURT: – in which to file either a response to the summary judgment – in which to file a
response to the summary judgment motion, which may
include a request for [36] Rule 56(f ) relief. Then if
there’s a Rule 56(f ) request, then those have to get on
the calendar quickly and given priority, so I’ll put that
on the calendar. My staff will call defense counsel and
figure out the scheduling, call you guys, too, for a date,
and then we’ll go from there.

App. 83
MR. DEL GAIZO: Okay. Thank you, Your
Honor.
THE COURT:
MR. CLYDE:
THE COURT:

Okay.
All right.
All right. That’s it for today.

Thanks.
***

[37] CERTIFICATE
I, Cindy L. Lineburg, do hereby certify that the
foregoing pages constitute a true and accurate transcript of my stenographic notes, taken at said time and
place, all done to the best of my skill and ability.
DATED this 22nd day of March, 2016.
/s/
Cindy L. Lineburg, RPR, CR, CSR (CA)
Official Certified Reporter
No. 50031

